                           U.S. Department of Agriculture

                              Office of Inspector General
                                          Midwest Region




                Audit Report

USDA’s Controls Over the Importation and Movement
                 of Live Animals




                               Report No. 50601-0012-Ch
                                             March 2008
Executive Summary
USDA’s Controls Over the Importation and Movement of Live Animals

Results in Brief                      This report presents the results of our audit to evaluate the effectiveness of
                                      the U.S. Department of Agriculture’s (USDA) controls over the importation
                                      and movement of live animals. Under the authority of the Animal Health
                                      Protection Act, USDA’s Animal and Plant Health Inspection Service
                                      (APHIS) regulates the importation of live animals. During fiscal year (FY)
                                      2006, over 20 million animals were brought into the United States. 1 Over
                                      99 percent of these animals were imported from Canada and Mexico.
                                      Shipments of live animals are met at the border by officials from the
                                      Department of Homeland Security Customs and Border Protection (CBP). In
                                      accordance with a Memorandum of Agreement with APHIS, CBP refers live
                                      animal shipments to the APHIS port-of-entry veterinarian for inspection. 2

                                     APHIS port-of-entry veterinarians review import documentation3 and
                                     perform a visual inspection of the animals from outside the conveyance or by
                                     offloading the animals into pens and then inspecting them. If necessary, 4
                                     APHIS port-of-entry veterinarians secure the doors of the conveyance with
                                     official USDA seals. 5 Different requirements exist for each species of
                                     imported animal, but most imported animals require a health certificate to
                                     enter the United States. A licensed veterinarian from the country of origin
                                     inspects the animals, then signs the health certificate certifying the health
                                     status of the animals and that U.S. import requirements are met. The
                                     certificate is then endorsed and sealed by a veterinary official from the
                                     country of origin. The most common certification is that the animal(s) to be
                                     imported were inspected and determined to be free of communicable disease.

                                     APHIS works with the Food Safety and Inspection Service (FSIS) at
                                     designated slaughter establishments to ensure the proper handling of imported
                                     animals sent to slaughter. At each slaughter establishment, an FSIS
                                     veterinarian inspects the animals and verifies that the import documentation is
                                     complete and, if applicable, that the seals on the conveyance are present and
                                     unbroken. An FSIS official signs the import documents and returns a copy to




1
  Source: APHIS’ Import Tracking System database.
2
  Memorandum of Agreement signed by both Departments’ Secretaries on February 28, 2003.
3
  Declaration for Importation; APHIS Form 17-29, Animals, Animal Semen, Animal Embryos, Birds, Poultry, or Hatching Eggs; and health certificates
from the country of origin.
4
  Veterinary Services Memorandum 591.15 Importation of Restricted Animals from Canada and Mexico for Immediate Slaughter, establishes procedures
for the handling of untested (restricted) animals; 9 CFR Part 93, dated July 27, 2006, specifies import requirements by animal type, including pertinent
testing requirements. For example, bovine entering the U.S. from Mexico do not require the use of seals when sent to a feedlot.
5
  Certain shipments of live animals are required to have the conveyance doors secured with an official USDA seal to maintain the integrity over restricted
movements; e.g., Canadian bovine or swine.

USDA/OIG-A/50601-0012-Ch                                                                                                                         Page i
                                     the APHIS port-of-entry, or area office, to confirm that the shipment was
                                     received. 6

                                     Our audit concluded that APHIS’ controls over live animal imports need to be
                                     strengthened to prevent, detect, and address the entry of live animals that do
                                     not meet import requirements. While APHIS relies on country of origin
                                     health certificates certifying the animal’s health condition, age, and/or other
                                     import requirements, it does not have adequate processes in place to follow
                                     up and determine whether individual problems detected represent a larger
                                     systemic noncompliance that needs to be addressed by agency inspection
                                     personnel or the country of origin. Import problems that are detected are
                                     generally handled locally and are not assessed from a program management
                                     perspective.

                                     APHIS does not have effective systems or controls for approving and/or
                                     tracking live animals into the United States. We found animals entered the
                                     country without APHIS inspection. An internal APHIS review of ports-of-
                                     entry in September 2004, also disclosed that live animals bypassed
                                     inspection. 7 APHIS relies on a manual process to account for and track the
                                     movement of animals from CBP to APHIS inspection at the border and to
                                     their final destination (e.g., feedlots, slaughter establishments). APHIS does
                                     not always reconcile or follow up on discrepancies in the number of animals
                                     arriving at their final destinations as compared to those approved for entry
                                     into the United States. Therefore, APHIS cannot always demonstrate that all
                                     restricted 8 animals are slaughtered.           Also, we found inadequate
                                     accountability over the inventory and issuance of official USDA seals used to
                                     secure the movement of restricted animals after inspection at the port-of-
                                     entry.

                                     Homeland Security Presidential Directive 9 establishes a national policy to
                                     defend the agriculture and food system against terrorist attacks, major
                                     disasters, and other emergencies, which includes enhancing screening
                                     procedures for domestic and imported products. Because we believe these
                                     issues represent potential homeland security weaknesses, on May 1, 2007, we
                                     issued a Management Alert to both APHIS and FSIS during our fieldwork
                                     and made recommendations for immediate corrective action.

                                      APHIS recognizes the need to develop automated controls over its live
                                      animal import process. It is developing the Veterinary Services Process
                                      Streamlining (VSPS) system, which is expected to replace existing manual,
                                      paper-oriented processes. VSPS is expected to provide a more comprehensive

6
  Documents for animals imported for immediate slaughter are returned to the APHIS port-of-entry; documents for animal movements from approved
feedlots to slaughter establishments are returned to the applicable APHIS area office.
7
  APHIS conducted an internal Safeguarding Review of operations at 23 ports-of-entry in September 2004.
8
  The term “restricted” refers to specific requirements imposed by APHIS to limit the movements of certain animals. For example, the movement of
feeder bovine from Canada was restricted to one feedlot where the feeder bovine must remain until transported under seal to a slaughter establishment.

USDA/OIG-A/50601-0012-Ch                                                                                                                        Page ii
                                     tool for animal tracking and disease analysis which, in turn, would allow
                                     APHIS to respond more quickly to any threats to animal health in the United
                                     States. However, the live animal import module of VSPS has already been
                                     delayed for more than 2 years due to other agency priorities, and it is not
                                     anticipated to be completed before September 2008. Until this system is fully
                                     implemented, interim actions need to be taken to strengthen controls and to
                                     track the movement of live animals into the United States.

                                     In response to our Management Alert, APHIS officials stated that they are
                                     committed to ensuring all of APHIS’ regulatory controls are sufficient. They
                                     formed a working group of experts from APHIS and FSIS to examine import
                                     protocols, pre-import clearance requirements, procedures at ports-of-entry,
                                     and import controls at feedlots and slaughter facilities. On November 27,
                                     2007, APHIS officials provided OIG with their report on the conclusions
                                     presented by the working group. Overall, the working group determined that
                                     most of the concerns OIG identified could be corrected with uniform and
                                     consistent implementation of guidelines and improved communication
                                     protocols. To support its 13 recommendations, the working group drafted
                                     policies for consideration by the Deputy Administrator and possible follow
                                     up with FSIS. These recommendations are under review by the Deputy
                                     Administrator.

                                     The following summarizes the conditions we found during our audit.

                                     Increased Inspection Efforts Needed for Import Restrictions

                                     An import restriction, known as the Minimum Risk Region (MRR) rule, 9 was
                                     implemented after the discovery of Bovine Spongiform Encephalopathy
                                     (BSE) 10 in an animal imported from Canada. The MRR rule allowed bovine
                                     from Canada to be imported provided the bovine were not pregnant and were
                                     under 30 months of age when slaughtered. The Canadian Food Inspection
                                     Agency (CFIA) 11 documents compliance with these import restrictions on a
                                     health certificate.

                                     During our fieldwork, a feedlot owner informed us that they had Canadian
                                     bovine that reached 30 months of age, which is a violation of the MRR rule.
                                     We also identified other instances of noncompliance with the MRR rule from
                                     various sources including APHIS area offices, slaughter establishments, FSIS
                                     personnel, and APHIS’ Investigative Enforcement Services (IES). 12 We
                                     could not determine the extent of problems detected because APHIS does not
                                     centrally accumulate or report import noncompliance.

9
  Final rule was published on January 4, 2005, in the Federal Register, Volume 70, Number 460; also see 9 CFR Parts 93, 94, 95 and 96.
10
   BSE, widely known as “mad cow disease,” is a chronic, degenerative disease affecting the central nervous system of cattle.
11
   CFIA is APHIS’ counterpart in charge of animal health and regulating imports and exports.
12
   The organizational component of APHIS that investigates alleged import violations.

USDA/OIG-A/50601-0012-Ch                                                                                                                 Page iii
                                      From these sources, we identified 113 Canadian health certificates used to
                                      import more than 7,000 bovine, that did not accurately represent the health,
                                      age, or identification of 211 bovine imported for slaughter. We found
                                      56 health certificates did not identify 85 bovine that were pregnant. We also
                                      found another 50 health certificates for 105 bovine did not list accurate ages,
                                      since veterinarians at feedlots or slaughter establishments determined the
                                      bovine to be over 30 months of age. The remaining 7 health certificates had
                                      missing or incorrect animal identification information for 21 bovine. We
                                      concluded that these problems were not isolated occurrences because they
                                      involved at least 52 different Canadian veterinarians and 40 CFIA officials.
                                      APHIS does not have processes in place to collectively analyze import
                                      noncompliance or follow up with CFIA officials to determine if corrective
                                      actions are needed.

                                      After our fieldwork, APHIS implemented a new MRR rule, effective
                                      November 19, 2007. 13 The new MRR rule now allows all bovine born after
                                      March 1, 1999, to be imported to the United States. However, the problems
                                      we found during this audit raise concerns with APHIS’ controls over live
                                      animal imports, and whether controls are adequate to ensure compliance with
                                      import restrictions or provide adequate screening and/or defense against
                                      deliberate attacks or natural disasters.

                                      Enhanced Surveillance Needed at Northern Border

                                      Additional controls are needed at northern ports-of-entry to obtain stronger
                                      assurance that all animal shipments are inspected by APHIS veterinarians.
                                      APHIS port officials rely on CBP officials to refer live animal shipments to
                                      them, as well as compliance by the transporters to stop for inspection. APHIS
                                      has not arranged with CBP to receive notification of incoming live animal
                                      shipments, nor has it obtained access to CBP’s Automated Targeting
                                      System 14 to track animals that have entered the United States to inspection.

                                      Through discussions with port officials and our review of APHIS IES
                                      records, we confirmed that 161 animal shipments gained unauthorized entry
                                      into the United States during FYs 2005 and 2006. APHIS Headquarters
                                      officials stated they were not aware that live animal shipments were
                                      bypassing their inspection process even though an internal review conducted
                                      in September 2004 15 disclosed that problems had occurred. When problems
                                      are eventually discovered, they are addressed by APHIS’ port or area office
                                      personnel, and/or by IES. Although the number of shipments being
                                      investigated by APHIS are less than 1 percent of the 55,000 animal shipments

13
   Final rule (amended) was published on September 18, 2007, in the Federal Register, Volume 72, Number 180.
14
   The Automated Targeting System is an Intranet-based enforcement and decision support tool that allows CBP officials to focus their efforts on travelers
and cargo shipments that warrant greater scrutiny. The Automated Targeting System also contains information on animal and animal product shipments
that are approaching the United States.
15
   APHIS presents the recommendations of its September 2004 review in the “Safeguarding Review Action Plan (Draft),” dated January 31, 2007.

USDA/OIG-A/50601-0012-Ch                                                                                                                       Page iv
                                     inspected for 2005 and 2006, we were not able to determine the full extent of
                                     this problem. APHIS does not adequately track live animal imports and, if
                                     problems are detected, does not collectively analyze import violations.

                                     Controls to Ensure Imported Animals Reach Slaughter Establishments

                                     APHIS has policies that add restrictions to the movements of certain animals
                                     that are imported. The largest volume of animals imported in this category is
                                     (approximately 2 million) 16 swine from Canada for immediate slaughter.
                                     After inspection at the port-of-entry, swine are moved in a sealed conveyance
                                     directly to a slaughter establishment. Such immediate slaughter swine from
                                     Canada do not require a health certificate to enter the United States.
                                     Additionally, feeder bovine from Canada are restricted17 and must travel in a
                                     sealed conveyance to the feedlot and remain at the feedlot until they are
                                     transported under seal to a slaughter establishment.

                                     APHIS can not demonstrate that all immediate slaughter swine or feeder
                                     bovine from Canada arrived at their intended destination and were timely
                                     slaughtered. We found that 436 feeder bovine and almost
                                     9,000 immediate slaughter swine (over a 4-month period) could not be
                                     verified as having been slaughtered, as required. Import documentation
                                     showed discrepancies in the number of animals arriving at their final
                                     destination as compared to those approved for entry into the United States.
                                     APHIS did not reconcile the discrepancies or follow up to determine what
                                     happened. The tracking of live animals to slaughter is performed manually
                                     and APHIS has not completed an automated system that will facilitate this
                                     task.

                                     According to APHIS management, they never intended to track every bovine
                                     from Canada from feedlot to slaughter because other controls such as the
                                     Canada brand 18 would guard against the diversion of bovine. Similarly,
                                     APHIS management was not concerned about tracking individual swine from
                                     Canada because they do not carry any diseases that are not already in the
                                     United States.

                                     Bovine Imported from Mexico

                                     While Mexico does not have BSE and, thus, the MRR rule does not apply to
                                     its bovine, APHIS has established other special procedures for allowing entry
                                     of Mexican imports into the United States. For example, in addition to having
                                     a valid health certificate, bovine from Mexico must be closely inspected for


16
   Source: APHIS’ Import Tracking System database.
17
   Final rule (amended) dated September 18, 2007, lifted this restriction effective November 19, 2007.
18
   Feeder bovine from Canada required a “CAN” brand that results in a permanent mark to the animal’s hide. The mark must be no less than 2 inches high
and must be applied to each animal’s right hip.

USDA/OIG-A/50601-0012-Ch                                                                                                                    Page v
                                     disease inducing ticks, and there must be evidence that each animal has tested
                                     negative for Bovine Tuberculosis (TB) because of the prevalence of TB in
                                     Mexico’s bovine population.

                                     During our visit to [         ] southern port-of-entry, we observed that, upon
                                     inspection by APHIS veterinarians, 25 of 1,586 bovine were rejected for
                                     various health concerns, and one was rejected for not having a specific tag
                                     indicative of testing negative for TB. We confirmed with APHIS officials
                                     that bovine are routinely rejected for health concerns at all southern
                                     ports-of-entry. However, the reasons that animals are rejected are not
                                     accumulated, analyzed, or communicated outside of each individual
                                     port-of-entry or back to agricultural officials in Mexico for corrective actions.
                                     Furthermore, rejected animals are not identified on import documents; thus, it
                                     appears all animals in the shipment were allowed entry into the United States.
                                     This could complicate APHIS’ efforts to locate bovine if a disease
                                     investigation is necessary.

                                     We also learned that it is APHIS’ practice at southern ports-of-entry to reject
                                     only individual bovine that lack the appropriate ear tag indicating the bovine
                                     tested negative for TB. In these cases, the rest of the shipment is allowed to
                                     enter even though the untagged bovine was not inspected. Also, the
                                     accompanying records had not been checked to verify that the untagged
                                     bovine was certified to be free of communicable disease, had not previously
                                     been exposed to disease, or that it tested negative for TB. Without performing
                                     these additional steps, APHIS lacks the assurance that the rest of the
                                     shipment was not exposed to a communicable disease such as TB. Federal
                                     regulations 19 state that bovine found to be infected with or exposed to a
                                     communicable disease shall be refused entry. In a separate audit,20 we
                                     reported that 75 percent of TB cases detected in the United States over a
                                     5-year period were traced to Mexico. As a result, we concluded that the
                                     practice of allowing the remainder of the shipment into the country without
                                     confirming the status of the questionable bovine is not in compliance with
                                     regulatory requirements.

                                     Accountability for Official USDA Seals

                                     Official USDA seals are used to secure conveyance doors to maintain the
                                     integrity over restricted animal movements (e.g., immediate slaughter swine
                                     from Canada). These seals also signify that the animals included in a
                                     particular shipment have passed some type of government inspection.
                                     However, we found that seals were not properly accounted for at the sites we
                                     visited. We visited five of APHIS’ area offices and five ports-of-entry and
                                     found that each location maintained and recorded seal inventories in a

19
     9 CFR Part 93.426(a), dated February 7, 2003.
20
     OIG Audit Report, 50601-9-CH, APHIS’ Control Over the Bovine Tuberculosis Eradication Program, dated September 2006.

USDA/OIG-A/50601-0012-Ch                                                                                                    Page vi
                                   different fashion. Consequently, 9 of these 10 locations did not have
                                   sufficient documentation for us to fully reconcile the number of seals
                                   received, issued, or used. However, we did identify 14,000 USDA seals that
                                   could not be accounted for by APHIS’ field personnel. We reported this
                                   matter to APHIS in our May 1, 2007, Management Alert. In response, APHIS
                                   officials stated that they have not received any information on the misuse of
                                   official seals. However, they issued an alert to all area offices to immediately
                                   reconcile the inventory of seals and increase the security of the seals
                                   maintained in the offices. In addition, APHIS responded that they would
                                   develop inventory and security procedures for seals and a mechanism for the
                                   reporting of inventory discrepancies that are discovered.

                                   Oversight of Field Operations

                                   APHIS needs to improve its oversight of the re-inspection process, port
                                   operations, and implementation of corrective actions in response to
                                   recommendations made in prior audits. 21 APHIS has not prescribed controls
                                   or procedures in a port operations manual or developed an adequate process
                                   to ensure import data quality. Further, APHIS has not timely reviewed, as
                                   required, port and slaughter operations to ensure that import controls and
                                   established protocols are functioning as intended.

                                   APHIS conducted an internal review of operations at 23 land border ports-of-
                                   entry in September 2004. 22 We visited five of the same ports-of-entry as their
                                   review team and found that the conditions APHIS reported continue to exist.
                                   Similar to APHIS’ review, we found that better coordination is needed with
                                   CBP officials. In particular, APHIS reported, and we found, that the
                                   Temporary Horse Program was ineffective. [
                                      ] of the 161 unauthorized live animal shipments that entered the U.S. in
                                   FYs 2005 and 2006. Both APHIS’ review and our current and prior audits
                                   indicated the need for standard operating manuals due to the lack of
                                   consistency between port operations.




21
   OIG Audit Report No. 33501-1-CH, Review of Application Controls for the Import Tracking System, dated March 2005;
OIG Audit Report No. 33099-2-HY, APHIS International Programs, dated January 2001; and Audit Report No. 33099-1-HY, APHIS International
Programs, dated June 1995.
22
   The recommendations of the review are presented in APHIS Report, Safeguarding Review Action Plan (Draft), dated January 31, 2007.

USDA/OIG-A/50601-0012-Ch                                                                                                           Page vii
Recommendations
In Brief           We recommended a number of actions to enhance the controls over live
                   animal imports, including:

                   • Establish an automated system of records to document, track, and report
                     problems with imported animals to key stakeholders;

                   • Strengthen coordination with CBP at the northern border to ensure that all
                     animal shipments are properly inspected; and

                   • Amend procedures at the southern border ports-of-entry to help prevent the
                     importation of diseased animals, including holding or rejecting shipments
                     if proof of disease testing is not adequate.

                   We also recommended that procedures be implemented to ensure that the
                   requirements for restricted animals are met and to institute controls over
                   official USDA seals. Lastly, we recommended that additional controls be
                   established to improve oversight of area offices and port operations and to
                   implement the recommendations from prior audits pertaining to preparing a
                   port manual and performing data checks.

Agency Response    In their responses APHIS and FSIS officials agreed with Recommendations
                   1, 2, 3, 4, 6, 7, 9, and 11 through 20. In their response APHIS did not agree
                   with Recommendations 5, 8, 10, and 21. We have incorporated applicable
                   portions of both agencies’ responses, along with our position, within the
                   Findings and Recommendations section of the report. APHIS and FSIS
                   responses to the official draft report are included in their entirety as exhibits
                   A and B, respectively, of this report.

OIG Position       Based on APHIS and FSIS responses, we have reached management
                   decisions on Recommendations 1, 2, 3, 7, 11, 14, 15, 16, 17, 18, 19, and 20.
                   Management decisions can be reached on Recommendations 4, 5, 6, 8, 9, 10,
                   12, 13, and 21 once APHIS has provided us with the additional information
                   outlined in the report section, OIG Position.




USDA/OIG-A/50601-0012-Ch                                                                  Page viii
Abbreviations Used in This Report

APHIS               Animal and Plant Health Inspection Service
BSE                 Bovine Spongiform Encephalopathy
CBP                 Customs and Border Protection
CEAH                Center for Epidemiology and Animal Health
CFIA                Canadian Food Inspection Agency
CFR                 Code of Federal Regulations
DHS                 United States Department of Homeland Security
FSIS                Food Safety and Inspection Service
FY                  Fiscal Year
IES                 Investigative and Enforcement Services
ITS                 Import Tracking System
MRR                 Minimum Risk Region
NCIE                APHIS’ National Center for Import and Export
OCFO                Office of the Chief Financial Officer
OIG                 Office of Inspector General
TB                  Bovine Tuberculosis
USDA                United States Department of Agriculture
VS                  Veterinary Services
VSPS                Veterinary Services Process Streamlining




USDA/OIG-A/50601-0012-Ch                                            Page ix
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................ix

Background and Objective .................................................................................................................... 1

Findings and Recommendations............................................................................................................ 6

    Section 1.           Controls were not Sufficient to Prevent or Detect Unauthorized Imports of Live
                         Animals ....................................................................................................................... 6

        Finding 1             Increased Inspection Efforts Needed for Import Restrictions................................. 7
                                  Recommendation 1 ........................................................................................ 10
                                  Recommendation 2 ........................................................................................ 11
                                  Recommendation 3 ........................................................................................ 11
                                  Recommendation 4 ........................................................................................ 12
                                  Recommendation 5 ........................................................................................ 12
        Finding 2             Enhanced Animal Surveillance is Needed at the Northern Border ....................... 13
                                  Recommendation 6 ........................................................................................ 15
                                  Recommendation 7 ........................................................................................ 16
        Finding 3             Better Controls are Needed to Ensure Imported Animals Reach Slaughter
                              Establishments....................................................................................................... 16
                                  Recommendation 8 ........................................................................................ 19
                                  Recommendation 9 ........................................................................................ 20
        Finding 4             Additional Steps are Needed at the Mexico Border to Prevent the
                              Importation of Diseased or Unhealthy Bovine...................................................... 21
                                  Recommendation 10 ...................................................................................... 22
                                  Recommendation 11 ...................................................................................... 23
                                  Recommendation 12 ...................................................................................... 24

    Section 2.           Accountability for Official USDA Seals ................................................................. 25

        Finding 5             APHIS Needs a Better System to Account for Official USDA Seals ................... 25
                                 Recommendation 13 ...................................................................................... 26
                                 Recommendation 14 ...................................................................................... 27
                                 Recommendation 15 ...................................................................................... 28
                                 Recommendation 16 ...................................................................................... 28




USDA/OIG-A/50601-0012-Ch                                                                                                                       Page x
    Section 3.           APHIS Needs to Improve Oversight of Area and Port Operations..................... 29

        Finding 6            APHIS did not Re-inspect Slaughter Establishments that Imported Live
                             Animals ................................................................................................................. 29
                                  Recommendation 17 ...................................................................................... 30
                                  Recommendation 18 ...................................................................................... 31
        Finding 7            Port Operations Not Routinely Reviewed ............................................................. 31
                                  Recommendation 19 ...................................................................................... 33
                                  Recommendation 20 ...................................................................................... 34
        Finding 8            Import Tracking System Errors Are Still Occurring ............................................. 34
                                  Recommendation 21 ...................................................................................... 36

Scope and Methodology........................................................................................................................ 37

Exhibit A – APHIS’ Response to the Report...................................................................................... 39

Exhibit B – FSIS’ Response to the Report.......................................................................................... 46




USDA/OIG-A/50601-0012-Ch                                                                                                                     Page xi
Background and Objective
Background                            The U.S. Department of Agriculture (USDA) regulates the importation and
                                      movement of live animals as well as other animal-derived materials, such as
                                      embryos and semen. In 1972, USDA established the Animal and Plant Health
                                      Inspection Service (APHIS) to protect and improve the health, quality, and
                                      marketability of our Nation’s animals.

                                      The Animal Health Protection Act 23 states that the prevention of disease is
                                      necessary to protect animal health and the health and welfare of the people of
                                      the United States. The Act granted USDA the authority to implement controls
                                      over the import, export, and some interstate animal movements. USDA,
                                      specifically APHIS, promulgates regulations as needed to prevent the
                                      importation and dissemination of animal disease.

                                      Federal regulations 24 list various import requirements according to species
                                      and the purpose of the animal’s entry (e.g., feeding, immediate slaughter,
                                      etc.) for the 85 foreign countries that exported animals to the United States
                                      during fiscal years (FY) 2005 or 2006. These requirements are administered
                                      by APHIS through 2 regional offices and 41 area offices. Area officials
                                      monitor animal health within their jurisdiction, including each port-of-entry.
                                      Nationwide there are 37 land border ports-of-entry, 3 animal import centers
                                      with quarantine facilities, and 27 ports-of-entry not staffed by a full-time
                                      veterinarian.

                                      In addition to APHIS’ field personnel, USDA has relied on its veterinary
                                      accreditation program for private practitioners to assist Federal veterinarians
                                      in controlling animal diseases. APHIS, accredited veterinarians, and State
                                      animal health officials work cooperatively to protect and improve the health,
                                      quality, and marketability of animals in the United States. Accredited
                                      veterinarians perform official functions such as inspecting, testing, and
                                      sealing shipments with USDA seals. More than 80 percent of all veterinarians
                                      in the United States are accredited.

                                      During FY 2006, imports from Canada and Mexico accounted for
                                      99.9 percent of the live animals imported into the United States. Of the three
                                      major species imported each year (see Table 1 on the following page), only
                                      bovine are imported from Mexico because of disease concerns with its other
                                      animals. In excess of 90 percent of all animal imports originate from Canada
                                      and more than 80 percent entered the United States through five northern
                                      land border ports-of-entry.


23
     Animal Health Protection Act, as amended through Public Law 108–498, 7 United States Code 8301, dated December 23, 2004.
24
     Title 9 Code of Federal Regulations (CFR) Part 93, dated July 27, 2006.

USDA/OIG-A/50601-0012-Ch                                                                                                        Page 1
                                                               TOTAL ANIMALS IMPORTED
                                                                      (in millions)
                                                                                Fiscal Year 2005                   Fiscal Year 2006
                                           Total Animals                                20.1                               20.4
                                            Species:
                                               Poultry                                  10.4                                 9.4
                                               Porcine                                   8.1                                 8.6
                                               Bovine                                    1.5                                 2.3
                                               Other 25                                  0.1                                 0.1
                                            Purpose:
                                               Feeding                                  13.0                               14.2
                                               Slaughter                                 3.4                                3.4
                                               Other 26                                  3.7                                2.8
                                                            Table 1 - Source: APHIS’ Import Tracking System

                                      Import Process for Animals

                                      Shipments of live animals from Canada and Mexico are met at the border by
                                      personnel from the Department of Homeland Security’s (DHS) Customs and
                                      Border Protection (CBP). Each shipment includes a “Declaration for
                                      Importation” form that is presented to CBP. In accordance with a
                                      Memorandum of Agreement with APHIS, CBP officials refer live animal
                                      shipments to APHIS for inspection. 27

                                      The primary responsibility for certifying the import of live animals into the
                                      United States resides with APHIS’ port personnel. APHIS port-of-entry
                                      veterinarians review import documentation, perform a visual inspection of
                                      the animals from outside the conveyance or by offloading the animals into
                                      pens and then inspecting them. If necessary, APHIS port-of-entry
                                      veterinarians secure the doors of the conveyance with official USDA seals. In
                                      addition, the conveyance will be sealed with official USDA seals for
                                      specified imports as established by APHIS regulations and policies. For
                                      example, through regulation 28 APHIS has established that certain shipments
                                      be sealed such as bovine from Canada. APHIS also established a policy 29 that
                                      shipments of animals from Canada that do not require health certificates be
                                      sealed, such as swine going directly to slaughter. Each seal is uniquely
                                      numbered, tamper-proof in design, and should be affixed to all conveyance
                                      doors to help ensure the integrity of the shipment until it reaches its


25
   Includes bison, caprine (goats), equine (horses), ovine (sheep), exotic animals, and pets.
26
   Includes commercial poultry and egg production/hatching, as well as animals imported for breeding, competition, and pets.
27
   Memorandum of Agreement signed by both Departments’ Secretaries on February 28, 2003.
28
   9 CFR Part 93, dated July 27, 2006, specifies import requirements by animal type and includes pertinent testing requirements.
29
   Veterinary Services (VS) Memorandum 591.15, Importation of Restricted Animals from Canada and Mexico.

USDA/OIG-A/50601-0012-Ch                                                                                                              Page 2
                                       destination. Bovine entering the United States from Mexico to a feedlot do
                                       not require the use of seals.

                                       Federal regulations 30 list various import requirements according to species
                                       and the purpose of the animal’s entry (e.g., feeding, immediate slaughter,
                                       etc.). In addition, most imports are required to be accompanied by a health
                                       certificate. This certificate is a key requirement for animal imports. A
                                       licensed veterinarian from the country of origin inspects the animals, then
                                       signs the health certificate certifying the health status of the animals and that
                                       U.S. import requirements are met. The certificate is then endorsed and sealed
                                       by a veterinary official of the exporting government. The most common
                                       certification is that the animal(s) to be imported were inspected and
                                       determined to be free of communicable disease. APHIS also requires, for
                                       example, that imported animals have met certain age or testing requirements.

                                       APHIS coordinates with the Food Safety and Inspection Service (FSIS) at
                                       designated slaughter establishments to ensure the proper handling of
                                       imported animals. At each slaughter establishment, an FSIS veterinarian
                                       inspects the animals and verifies that the import documentation is complete
                                       and, if applicable, that official USDA seals are unbroken. Once the animal
                                       shipment is unloaded, an FSIS official signs the import documents that
                                       accompany the shipment. A copy of the completed import documents are
                                       either sent back to the APHIS port-of-entry (if transported directly to a
                                       slaughter establishment) or an area office (if transported from a feedlot), to
                                       confirm that the shipment was received. APHIS area officials perform semi-
                                       annual reviews, called re-inspections, at slaughter establishments to ensure
                                       the proper procedures are in place for animals imported for immediate
                                       slaughter.

                                       Bovine Imported from Canada

                                       APHIS banned the importation of Canadian bovine in May 2003 following
                                       the discovery of one case of Bovine Spongiform Encephalopathy (BSE). The
                                       detection of one case of BSE in the State of Washington demonstrates the
                                       economic impact of importing a single diseased animal. When this case of
                                       BSE was detected, other countries quickly closed their borders to the U.S.
                                       bovine industry. The estimated economic impact of the loss of the U.S.
                                       export market is in the billions of dollars. Three of the largest foreign markets
                                       for U.S. bovine are still not entirely open as of December 2007. 31

                                       The ban on Canadian bovine was lifted after APHIS published its final rule,
                                       “BSE: Minimal-Risk Regions and Importation of Commodities,” on


30
     9 CFR Part 93, dated July 27, 2006.
31
     For example, Japan will only accept products generated from bovine under 20 months of age.

USDA/OIG-A/50601-0012-Ch                                                                                        Page 3
                                    January 4, 2005. 32 The rule, known as the MRR rule, amended regulations
                                    regarding the importation of Canadian bovine that present a minimal risk of
                                    introducing BSE into the United States; bovine and other ruminants could be
                                    imported provided they met certain restrictions.

                                    APHIS port officials inspect and seal shipments of animal imports from
                                    Canada; an APHIS Form 17-33, Animals Imported for Immediate Slaughter,
                                    or Form 17-130, Ruminants Imported to Designated/Approved Feedlots, is
                                    prepared to allow entry into the United States. For bovine imported for
                                    immediate slaughter, an FSIS official at the slaughter establishment validates
                                    the number of animals arriving for slaughter and signs and returns APHIS
                                    Form 17-33 to the APHIS port-of-entry. For bovine imported for feeding,
                                    designated feedlot personnel must validate the number of animals arriving at
                                    the feedlot and return APHIS Form 17-130 to the port-of-entry. An APHIS
                                    official at the port-of-entry is to reconcile the information on APHIS Forms
                                    17-130 and 17-33 to ensure the same number of animals that crossed the
                                    border actually arrived at their destination.

                                    Once bovine at feedlots reach a target weight, they are transported to a
                                    slaughter establishment. The animals must first be inspected at the feedlot
                                    and the conveyance sealed by an accredited veterinarian. An APHIS
                                    Form 1-27, Permit for Movement of Restricted Animals, is prepared and
                                    accompanies the shipment to the slaughter facility; a copy is also mailed to
                                    the APHIS area office. After the bovine are unloaded at the slaughter
                                    establishment, an FSIS veterinarian performs a visual inspection, verifies the
                                    count, and signs and returns APHIS Form 1-27 to the area office; the form is
                                    to be reconciled to the copy sent to APHIS by the accredited veterinarian.

                                    Subsequent to our audit fieldwork, APHIS implemented a new MRR rule,
                                    effective November 19, 2007. The new MRR rule now allows all bovine
                                    from Canada born after March 1, 1999, to enter the United States. However,
                                    the requirements for immediate slaughter bovine from Canada still apply.

                                    Bovine Imported from Mexico

                                    Over 1 million bovine were imported from Mexico each year during FYs
                                    2005 and 2006. Due to the long-standing prevalence of Bovine Tuberculosis
                                    (TB), as well as other health concerns, APHIS instituted additional import
                                    requirements on bovine from Mexico. 33 To enter the United States, the
                                    bovine must have a valid health certificate, a blue ear tag, and documents
                                    signifying a negative test result for TB. In addition, the bovine are physically
                                    inspected for ticks and dipped in an anti-tick solution at the port-of-entry to
                                    prevent the spread of disease to feedlots and farms in the United States.
32
  Due to court injunctions and proceedings, the border remained closed to Canadian bovine until July 2005.
33
  9 CFR Parts 93.406 and 93.424 through 93.429, dated July 27, 2006, and VS Notice No. 06-08, Bovine Tuberculosis Testing Requirements for the
Importation of Mexican Cattle, dated September 8, 2006.

USDA/OIG-A/50601-0012-Ch                                                                                                                 Page 4
                                       Homeland Security and Investigative Activities

                                       Homeland Security Presidential Directive 9 established a national policy to
                                       protect the agriculture and food system from terrorist attacks, major disasters,
                                       and other emergencies by: (a) identifying and prioritizing sector-critical
                                       infrastructure and key resources for establishing protection requirements;
                                       (b) developing awareness and early warning capabilities to recognize threats;
                                       (c) mitigating vulnerabilities at critical production and processing nodes;
                                       (d) enhancing screening procedures for domestic and imported products; and
                                       (e) enhancing response and recovery procedures. 34

                                       APHIS uses its Investigative and Enforcement Services (IES) to conduct
                                       reviews of potential import violations. Regulated animal health issues that are
                                       identified at ports-of-entry or reported to APHIS’ area offices are referred to
                                       IES. The IES has staff located at APHIS’ Headquarters, regional offices, and
                                       local offices/residences to investigate non-compliance issues. An IES
                                       quarterly report, with updated case information, is issued to APHIS regional
                                       officials.

Objective                              The objective of the audit was to evaluate USDA’s controls over the
                                       importation and movement of live animals.




34
     Homeland Security Presidential Directive 9, Defense of United States Agriculture and Food, dated January 30, 2004.

USDA/OIG-A/50601-0012-Ch                                                                                                  Page 5
Findings and Recommendations
Section 1.   Controls were not Sufficient to Prevent or Detect Unauthorized Imports of
             Live Animals
                     During FY 2006, imports from Canada and Mexico accounted for
                     99.9 percent of the over 20 million live animals imported into the United
                     States. APHIS’ import controls are not sufficient to prevent, detect, or
                     address the entry of animals that do not meet import requirements. We
                     identified 113 Canadian health certificates used to import over 7,000 bovine
                     that did not accurately represent the health, age, or identification of
                     211 bovine imported for slaughter. APHIS relies on country of origin health
                     certificates certifying the animals’ health condition, age, and/or other import
                     requirements. APHIS does not have adequate processes in place to determine
                     the extent of import problems nationwide when individual violations are
                     identified by field units. As a result, neither we nor APHIS can determine
                     whether the individual problems detected represent a larger systemic
                     noncompliance that needs to be addressed by agency inspection personnel or
                     by the country of origin.

                     APHIS does not have effective systems or controls for approving and/or
                     tracking live animals into and through the United States. APHIS relies on a
                     manual (paper) process to account for and track the movement of live
                     animals to their final destination. At the northern border, at least 161 animal
                     shipments gained unauthorized entry into the United States during
                     FYs 2005 and 2006. APHIS port officials do not have access to DHS’ CBP
                     automated data systems to track imports of live animals to ensure that they
                     are inspected before entering the United States. APHIS has not developed an
                     automated tracking system to track the movement of restricted live animals to
                     slaughter establishments. We identified 436 feeder bovine and almost
                     9,000 immediate slaughter swine reported on import documents that did not
                     reach slaughter establishments. At the southern border, despite having an
                     animal population more susceptible to diseases such as Bovine Tuberculosis
                     (TB), import problems noted by APHIS port officials are resolved at the local
                     level and are not accumulated and analyzed to determine whether problems
                     represent a pattern, or whether further investigative actions are needed.

                     Whereas APHIS officials were unaware of the extent of import problems we
                     identified relating to Canadian bovine, an APHIS review of land border
                     operations in September 2004 identified some areas similar to those
                     identified in our work that are in need of improvement. In response to their
                     own internal review, APHIS drafted an action plan that concluded that better
                     coordination was needed with CBP, and that the Temporary Horse Program
                     be revised because it was ineffective. [                            ] of the
                     161 unauthorized shipments allowed into the U.S. during FYs 2005 and
                     2006. However, the action plan has not been implemented as of
                     December 2007.
USDA/OIG-A/50601-0012-Ch                                                                     Page 6
Finding 1                          Increased Inspection Efforts Needed for Import Restrictions

                                   APHIS does not have sufficient controls to prevent, detect, or resolve non-
                                   compliance with import requirements. We identified at least 211 bovine that
                                   did not meet import requirements. APHIS relied on health certifications by
                                   Canadian veterinarians to ensure imported bovine met restrictions under the
                                   MRR rule. 35 According to APHIS officials, additional controls are not
                                   needed because Canada has an effective veterinary infrastructure and a
                                   history of not exporting diseased animals to the United States. However,
                                   these problems were not isolated occurrences because they involved at least
                                   52 different Canadian veterinarians and 40 Canadian Food Inspection Agency
                                   (CFIA) 36 officials. APHIS does not have processes in place to collectively
                                   analyze import noncompliance or follow up with CFIA officials to determine
                                   if corrective actions are needed.

                                   The Animal Health Protection Act 37 states that the prevention of disease is
                                   necessary to protect animal health and the health and welfare of the people of
                                   the United States. APHIS published regulations 38 specifying import
                                   requirements that vary depending on the exporting country, animal species,
                                   and reason for import. In July 2005, the border with Canada re-opened for
                                   bovine provided the requirements in the MRR rule35 were met. Under the
                                   MRR rule, bovine from Canada must be individually identified, not be
                                   pregnant, and be slaughtered before reaching 30 months of age. Canada’s
                                   animal health certificate, which accompanies every shipment, contains
                                   certification that the bovine were inspected, the age determined, and
                                   pregnancy status verified.

                                   Based on our visits to [                 ] northern land border ports-of-entry,
                                   two bovine slaughter establishments, and two feedlots, we found bovine
                                   entered the United States that did not meet import requirements. Inspections
                                   of imported animals by accredited veterinarians at feedlots and/or FSIS
                                   veterinarians at slaughter establishments disclosed, that the Canadian health
                                   certificates had the incorrect age, pregnancy status, or identification for
                                   211 bovine. During FY 2006, nearly 1.1 million bovine were imported to the
                                   United States based on health certificates issued by the CFIA.

                                   Questionable Bovine Health Certificates

                                   We were notified of problems with Canadian health certificates by a feedlot
                                   owner, who had Canadian bovine over 30 months of age, in violation of the

35
   Final rule was published on January 4, 2005, in the Federal Register, Volume 70, Number 460.
36
   CFIA is APHIS’ counterpart in charge of animal health and regulating imports and exports.
37
   Animal Health Protection Act, as amended by Public Law 108–498, 7 United States Code 8301, dated December 23, 2004.
38
   9 CFR Part 93, dated July 27, 2006.

USDA/OIG-A/50601-0012-Ch                                                                                                 Page 7
                                     MRR rule. In addition to the problems at the feedlot, we identified other
                                     instances of noncompliance with import requirements from various sources
                                     including area offices, slaughter establishments, FSIS personnel, and IES’
                                     case files.

                                     We identified 145 39 indications of noncompliance with the MRR rule. Our
                                     review of import documentation and health certificates disclosed 113 cases of
                                     noncompliance because the health certificates reported the incorrect age,
                                     pregnancy status, or identification of the live animals. There were 56 health
                                     certificates for 85 pregnant bovine imported for immediate slaughter, and
                                     50 health certificates for 105 bovine with ages (as determined by an
                                     accredited veterinarian) that exceeded the 30 month age restriction. We also
                                     identified 7 other health certificates that had missing or incorrect animal
                                     identification for 21 bovine.

                                     We found that feedlot personnel and FSIS officials at bovine slaughter
                                     establishments detected over-age bovine even though they did not have
                                     routine procedures to do so. Personnel at 15 of the 17 feedlots we contacted
                                     stated that they relied on the Canadian health certificate to determine bovine
                                     age. Of the two feedlots that did verify bovine age, one of them identified
                                     several bovine over 30 months of age. FSIS implemented procedures 40 that
                                     stated hands-on dentition 41 was not to be used to determine the adequacy of
                                     the Canadian health certificates. However, we found that FSIS still detected
                                     over-age bovine at slaughter because there were obvious cases in which the
                                     bovine appeared larger and/or older.

                                     Import Problems Were Not Consistently Addressed

                                     We had difficulty assessing the significance of import noncompliance
                                     because the problems detected were not centrally accumulated or analyzed,
                                     and were addressed only by local officials. This process does not ensure
                                     problems are consistently handled or communicated to APHIS management.
                                     The absence of an automated system or organized approach to analyzing
                                     import noncompliance impaired our ability to determine if the problems we
                                     identified were part of a larger systemic pattern. Additionally, APHIS
                                     management had no information to answer this question; they continually
                                     referred us to local area or IES officials to obtain more information on import
                                     noncompliance issues.




39
   The 145 violations included 113 cases due to age, pregnancy, and incorrect identification on the health certificates. The remaining 32 cases were
comprised of the following: 17 cases were moved without required documentation, 6 cases were over age because the feedlot kept them past 30 months,
1 case involved misbranding, and 8 cases involved pregnant animals where it could not be determined where the animals became pregnant.
40
   FSIS Notice 14-07 (This notice updated procedures formerly in FSIS Notice 15-05), dated February 26, 2007.
41
   Physical examination of bovine teeth to determine age by the first appearance of the incisors.

USDA/OIG-A/50601-0012-Ch                                                                                                                     Page 8
                                      Procedures state that if there is reason to believe noncompliance exists, an
                                      investigation by IES should be requested and APHIS Headquarters should be
                                      notified. 42 However, we identified multiple cases of noncompliance that were
                                      not referred for investigation. For each import problem, APHIS’ personnel at
                                      the port-of-entry or the Area Veterinarian-in-Charge decided whether or not
                                      the situation should be referred to IES and communicated to Headquarters.
                                      For example, area officials in two States did not notify IES or APHIS
                                      Headquarters when they became aware of 47 pregnant bovine found at
                                      slaughter. While one area official stated that they referred 27 instances of
                                      pregnant bovine to their regional office for action, another area official stated
                                      that the 20 instances of pregnant bovine found in their State were not referred
                                      because they were not aware of the requirement to do so.

                                      Our review also found that APHIS officials did not sufficiently document
                                      import problems and, as a result, we were frequently referred to other sources
                                      such as IES or the slaughter establishment for details. This occurred because
                                      their investigation referral process was informal, conducted through either a
                                      telephone call or an e-mail, and records were not maintained of the problems.
                                      For 27 of the 47 pregnant bovine discussed above, we had to contact three
                                      different sources (APHIS’ area office, FSIS, and slaughter establishment
                                      personnel) to obtain sufficient records to review these problems.

                                      IES officials provide quarterly reports to APHIS regional officials of all
                                      ongoing investigations from their automated case tracking system. However,
                                      these reports are not analyzed by regional officials for trends or ongoing
                                      problems, or reviewed by APHIS’ Headquarters officials.

                                      Communication to Key Stakeholders

                                      We communicated these problems to APHIS Headquarters officials. They
                                      stated that they were unaware of the extent of the problems we identified.
                                      They also stated that they were only aware of a “few” cases 43 of
                                      noncompliance with the MRR rule that were referred to IES in calendar year
                                      2005, and one case in March 2007. Because APHIS management was not
                                      aware of the extent of the problems, they had not established additional
                                      controls to mitigate the weaknesses. In addition, these matters were not
                                      communicated to other stakeholders, such as FSIS or CFIA officials, for their
                                      consideration or assistance to prevent or detect ineligible bovine from
                                      entering the United States.

                                      In discussions with APHIS officials about the lack of controls over animals
                                      from Canada, they stated that controls have not been added because this area
                                      has historically proven to be low risk and that Canada has an effective animal

42
     VS Memorandum No. 591.64, Procedures for the Importation of Cattle, Bison, Sheep, and Goats from Canada, Sections XII.B and XIV.E.
43
     One IES case number could reflect multiple referrals for investigation.

USDA/OIG-A/50601-0012-Ch                                                                                                                  Page 9
                                   health and veterinary system. While APHIS officials have performed two
                                   reviews in Canada 44 to assess the risk of BSE, they had not conducted
                                   periodic program reviews of Canada’s export operations.

                                   We issued a Management Alert to APHIS and FSIS officials on May 1, 2007,
                                   with recommendations for immediate corrective action. At that time, they
                                   informed us that they would initiate actions to evaluate these matters. APHIS
                                   assembled a working group to determine the extent of health certificate
                                   errors. On November 27, 2007, APHIS provided OIG with the working
                                   group’s conclusions. Overall, the working group determined that most of the
                                   concerns they identified could be corrected with uniform and consistent
                                   implementation of guidelines and improved communication protocols.

                                   After our field work, APHIS implemented a new MRR rule, effective
                                   November 19, 2007. The new MRR rule now allows all bovine born after
                                   March 1, 1999, to be imported to the United States. However, the problems
                                   we found during this audit raise concerns with APHIS’ controls over live
                                   animal imports and whether the controls are adequate to ensure compliance
                                   with import restrictions, and whether the problems identified represent a
                                   larger systemic pattern that needs to be addressed by agency inspection
                                   personnel or the country of origin.

Recommendation 1

                                   Compile and analyze information from area officials, FSIS, and IES’ open
                                   and closed cases to identify the extent of all health certificate issues.

                                   Agency Response

                                   In response to our Management Alert, APHIS officials established a working
                                   group of experts from APHIS and FSIS that compiled and analyzed
                                   information from area officials, FSIS, and IES’ open and closed cases to
                                   identify the extent of health certificate issues. In response to this report,
                                   APHIS officials stated that they agreed with our recommendation and will
                                   develop a plan to provide FSIS and IES data directly to APHIS’ National
                                   Center for Import and Export (NCIE) for analysis. The reporting system will
                                   be developed by June 30, 2008.

                                   OIG Position

                                   We accept APHIS’ management decision. For final action, provide the
                                   OCFO with a copy of the procedures for the new reporting system, including
                                   how NCIE will analyze the information, and a copy of the first report that is
                                   provided to NCIE.
44
  APHIS Reports, Analysis of Risk—Update for the Final Rule: Bovine Spongiform Encephalopathy; Minimal Risk Regions and Importation of
Commodities, dated December 2004, and Assessment of Bovine Spongiform Encephalopathy (BSE) Risks Associated with the Importation of Certain
Commodities from BSE Minimal Risk Regions (Canada), dated October 2006.

USDA/OIG-A/50601-0012-Ch                                                                                                            Page 10
Recommendation 2

                   Communicate noncompliance with United States import policies to FSIS and
                   CFIA, and coordinate efforts with CFIA to prevent additional import
                   problems.

                   Agency Response

                   In response to our Management Alert, APHIS officials established a working
                   group of experts from APHIS and FSIS to review how problems with live
                   animal imports were being communicated between the agencies and CFIA. In
                   response to this report, APHIS officials stated that they agreed with our
                   recommendation and they will maintain a tracking sheet of violations and use
                   it to assess trends with importers and exporters. On a monthly basis, APHIS
                   will provide the results of that analysis to CFIA officials. The first
                   submission to CFIA will occur by April 30, 2008.

                   OIG Position

                   We accept APHIS’ management decision. For final action, provide the
                   OCFO with the procedures APHIS will use to track and analyze
                   noncompliance issues and communicate the analysis to FSIS and CFIA
                   officials, and a copy of the first report submitted to CFIA.

Recommendation 3

                   Implement procedures at slaughter establishments to perform random
                   dentition checks of bovine from Canada to ensure compliance with import
                   requirements.

                   Agency Response

                   In response to our management alert, dated May 14, 2007, FSIS’ officials
                   stated that they will conduct a census of slaughter establishment officials
                   regarding the certifications of age received with shipments of Canadian cattle.
                   In their response to this report, FSlS officials stated that APHIS’
                   implementation of a final rule, dated September 18, 2007, eliminated the age
                   restriction (30 months) on Canadian cattle. As a result, there remains no need
                   to continue the census or sample dentition. FSlS officials also stated that they
                   will continue to notify APHIS of imported cattle of questionable eligibility,
                   and control specified risk materials in Canadian and domestic cattle.

                   OIG Position

                   We accept FSIS’ management decision. No further action is necessary.
USDA/OIG-A/50601-0012-Ch                                                                  Page 11
Recommendation 4

                   Establish an automated system of records to document, track, and report
                   problems with imported animals to key stakeholders. In addition, periodically
                   review these results in order to determine the development of any nationwide
                   trends.

                   Agency Response

                   In APHIS’ response, they stated that they agreed with our recommendation
                   and they are establishing a development team to identify what system of
                   records would be included in the new import module of the VSPS computer
                   system to document and analyze problems found with imported animals. The
                   import module is expected to be completed by September 30, 2009.

                   OIG Position

                   In order to reach management decision, APHIS needs to provide us with a
                   description of how the import module of VSPS will be used to track and
                   report import problems, and the process they will use to periodically review
                   these results to identify nationwide trends.

Recommendation 5

                   Develop and implement procedures to perform periodic reviews of Canada’s
                   export operations.

                   Agency Response

                   APHIS’ response stated that Canada and the United States have many of the
                   same animal diseases, and they have performed reviews related to specific
                   animal diseases in that country when they occur. During such a review, the
                   veterinary infrastructure, laboratory practices, infected herd management and
                   surveillance activities are thoroughly reviewed. Based on such reviews and
                   close working relationship with CFIA officials, APHIS stated that they did
                   not believe it necessary to develop additional procedures to perform specific
                   reviews of Canada’s export operations.

                   OIG Position

                   As noted in Finding 1, APHIS officials did perform specific assessments in
                   Canada related to BSE. However, those assessments were in response to a
                   specific animal disease problem and were not a periodic review of Canada’s
                   overall animal health system. In particular, those assessments did not include
                   a review of all animal types or Canada’s export operations. In order to reach
USDA/OIG-A/50601-0012-Ch                                                                 Page 12
                                      management decision, APHIS needs to provide a course of action that will
                                      provide periodic oversight/monitoring to ensure that the United States can
                                      rely upon Canada’s animal health certifications.


Finding 2                             Enhanced Animal Surveillance is Needed at the Northern Border

                                      APHIS has not obtained access to CBP’s Automated Targeting System 45 to
                                      track animals that have entered the United States for inspection nor have they
                                      verified that all live imported animals have been inspected. APHIS port
                                      officials rely on CBP to refer live animal shipments to them for inspection, as
                                      well as compliance by transporters. We found that APHIS port officials did
                                      not inspect 161 shipments of animals when they entered the United States.
                                      Because APHIS does not track animals arriving at ports-of-entry, it cannot be
                                      determined whether other shipments have bypassed inspection or whether
                                      this is a systemic problem.

                                      A Memorandum of Agreement between USDA and DHS’ CBP 46 specifies
                                      the process for coordinating the entry and inspection of imported animals.
                                      APHIS port veterinarians rely on DHS officials to refer 47 all animal
                                      shipments for inspection. The only exception to this process relates to
                                      Canadian horses that will only be in the United States for 30 days or less.
                                      DHS can authorize the entry of these horses without referring them to APHIS
                                      for inspection. 48

                                      We found animal import procedures were not sufficient to prevent
                                      unauthorized shipments into the United States. Through discussions with port
                                      and IES officials, and our review of IES cases, we confirmed that 161 animal
                                      shipments gained unauthorized entry during FYs 2005 and 2006. Although
                                      the number of shipments being investigated is less than 1 percent of the
                                      55,000 animal shipments inspected, we found that APHIS has no process to
                                      coordinate or confirm with CBP that all animal shipments stopped for
                                      inspection.

                                      Port Configurations Not Conducive to Prevent Unauthorized Access

                                      Our observations at [                        ] ports-of-entry found that the
                                      border gate, where CBP officials allow an animal shipment initial entry, and
                                      the APHIS inspection area are not always co-located. APHIS’ animal

45
   The Automated Targeting System is an Intranet-based enforcement and decision support tool that allows CBP officials to focus their efforts on travelers
and cargo shipments that warrant greater scrutiny. The Automated Targeting System also contains information on animal and animal product shipments
that are approaching the United States.
46
   Memorandum of Agreement between the United States Department of Homeland Security and the United States Department of Agriculture,
USDA-APHIS Agreement No. 03-1001-0382-MU, dated February 28, 2003, Article 2(f).
47
   The Memorandum of Agreement did not specify the method of referral.
48
   9 CFR 93.317, dated October 28, 1997.

USDA/OIG-A/50601-0012-Ch                                                                                                                      Page 13
                   inspection areas can be within several hundred feet or up to several miles
                   away from the actual CBP border gate. At [                       ] APHIS’
                   animal inspection area is located [




                                                                     .]

                   Trucks are able to bypass inspection even when the APHIS inspection area is
                   in close proximity to the border gate. At the [xxxxxxxxxxxxxxxxxxxx]
                   port-of-entry, APHIS officials are located [




                                                              .]

                   APHIS officials informed us that they were aware of at least 8 animal
                   shipments [                                           ] FY 2006. However, if
                   imports are not properly tracked from entry into the United States, there is an
                   increased risk that additional animal shipments have bypassed inspection.

                   Horse Shipments Did Not Stop for Inspection

                   APHIS officials at [                       ] ports-of-entry informed us about
                   horses from Canada that were not inspected. An APHIS port official stated
                   that horses from Canada can be imported under “temporary” (30 days or less)
                   authorizations, which are not subject to APHIS inspection, or under a
                   “permanent” authorization that requires an APHIS inspection. Our review of
                   IES cases for FYs 2005 and 2006, found that [
                                     ] the required inspection at the port-of-entry. The horse
                   shipments were allowed into the United States by CBP officials under
                   APHIS’ “temporary” requirements, even though these shipments did not
                   meet the criteria to be considered a temporary entry. An APHIS port official
                   stated that CBP officials were not clear as to the import requirements for
                   horses from Canada and, as a result, did not direct those shipments to stop for
                   inspection.

                   During our visit to a regional office, we were provided a draft version of
                   APHIS’ Safeguarding Review Action Plan – Animal Import Land Border



USDA/OIG-A/50601-0012-Ch                                                                 Page 14
                                    Point of Entry. 49 The Action Plan was the result of reviews conducted by
                                    APHIS at 23 land border ports-of-entry, and it recommends improvements
                                    that would resolve 7 of the 152 recommendations in the Animal Health
                                    Safeguarding Review published in November 2001. 50 The Action Plan
                                    concluded that better coordination was needed with CBP, and that the current
                                    Temporary Horse Program (for horses staying 30 days or less) be revised
                                    because it was ineffective, encourages fraud by some importers to avoid user
                                    fees, and has a negative impact on disease exclusion and detection efforts.
                                    APHIS officials could not explain why corrective actions were not taken.

                                    APHIS needs to develop processes and systems to track live animal
                                    shipments that cross the border, including obtaining access to CBP’s
                                    Automated Targeting System pending implementation of their planned
                                    Veterinary Services Process Streamlining (VSPS) system.

Recommendation 6

                                    Establish better coordination with CBP officials at the northern border to
                                    ensure that all animal shipments are properly inspected. Develop an interim
                                    process for tracking live animal imports entering the United States.

                                    Agency Response

                                    In their response APHIS officials stated that they agreed with our
                                    recommendation and they will work with CBP to develop guidance/policy
                                    that would document how communication should occur between USDA and
                                    CBP port officials. Their response also stated that, at the local level, there is
                                    coordination between USDA and CBP port officials, but they will pursue the
                                    development of policy at the National level. Finally, their response
                                    acknowledged that CBP did have a database system which captures entry
                                    information.

                                    OIG Position

                                    We agree that APHIS needs to establish a written policy between APHIS and
                                    CBP to coordinate shipments entering the United States. However, our visits
                                    at the local level (e.g., ports-of-entry) did not disclose the level of
                                    coordination mentioned in APHIS’ response. Under the current system,
                                    APHIS port-of-entry officials were not notified of all incoming shipments
                                    and not every shipment was inspected. In order to reach management
                                    decision, APHIS needs to provide a response that describes how the new
                                    policy will enable APHIS to receive notification of animal shipments from

49
  APHIS Report, Safeguarding Review Action Plan (Draft), dated January 31, 2007.
50
  According to APHIS’ website, “safeguarding” is an integrated system for preventing, detecting, and appropriately responding to adverse animal health
events. The Animal Health Safeguarding Review was a comprehensive study to assess the performance and efficiency of the existing safeguarding system,
and it proposed specific recommendations on how to optimize that system.

USDA/OIG-A/50601-0012-Ch                                                                                                                  Page 15
                                       CBP. In addition, the response should also describe the process APHIS
                                       intends to use on an interim basis, such as the use of CBP’s import database
                                       system, until the new VSPS import module is implemented.

Recommendation 7

                                       Issue instructions to CBP officials stating the requirements and related
                                       procedures for horses imported from Canada under a temporary
                                       authorization.

                                       Agency Response

                                       The response stated that APHIS officials will issue instructions to CBP port
                                       officials detailing the requirements and related procedures for horses
                                       imported from Canada under a temporary authorization. The new instructions
                                       will be issued by May 30, 2008.

                                       OIG Position

                                       We accept APHIS’ management decision. For final action, provide the
                                       OCFO with the new instructions that were issued to CBP.


Finding 3                              Better Controls are Needed to Ensure Imported Animals Reach
                                       Slaughter Establishments

                                       Restricted animal imports, such as feeder bovine and immediate slaughter
                                       swine from Canada, require additional controls to prevent the introduction or
                                       dissemination of diseases that could affect the domestic herds. APHIS
                                       officials, however, did not ensure all restricted bovine or swine arrived at an
                                       approved slaughter establishment. In addition, APHIS officials did not take
                                       action when swine count discrepancies were disclosed by six slaughter
                                       establishments. APHIS did not have a process in place to track the movement
                                       and reconcile live animals entering the country to slaughter. As a result, they
                                       could not demonstrate that 436 feeder bovine and almost 9,000 swine from
                                       Canada were slaughtered.

                                       Under the MRR rule, 51 imports of bovine can go directly to slaughter or to a
                                       feedlot and then to slaughter. Feeder bovine from Canada must remain at a
                                       feedlot until moved directly to an approved slaughter establishment. When
                                       feeder bovine are sent to slaughter, feedlot personnel are required to identify
                                       individual bovine on transport documentation that must be reviewed and
                                       certified by an accredited veterinarian. This documentation accompanies the
                                       shipment and a copy is also provided to the APHIS area office. The
51
     Final rule was published on January 4, 2005, in the Federal Register, Volume 70, Number 460.

USDA/OIG-A/50601-0012-Ch                                                                                     Page 16
                                    restrictions on immediate slaughter swine from Canada require that
                                    shipments be visually inspected, sealed, transported directly to slaughter, and
                                    slaughtered within two weeks. 52 Once feeder bovine or immediate slaughter
                                    swine from Canada arrive at a slaughter establishment, FSIS personnel
                                    complete the APHIS Forms (1-27 for feeders or 17-33 for immediate
                                    slaughter) by confirming the shipment’s contents, and returning APHIS Form
                                    1-27 for feeder bovine to APHIS area officials, and APHIS Form 17-33 to the
                                    port officials for both bovine and swine that were transported directly to
                                    slaughter. The area or port officials are to manually match (or reconcile) the
                                    returned forms to the import documents they maintain to determine if
                                    shipments have timely arrived at their intended destination.

                                    Feeder Bovine from Canada

                                    Feeder bovine imported from Canada, which included over 300,000 feeders
                                    during FY 2006, were designated as restricted animals after the detection of
                                    BSE.51 APHIS officials established controls for feeder bovine from Canada,
                                    as described above. However, we found that APHIS area officials did not
                                    ensure all bovine were transported to a slaughter establishment. APHIS area
                                    office and port officials did not reconcile import documentation to APHIS
                                    Forms 1-27 and 17-33 to ensure that all bovine eventually reached slaughter
                                    establishments.

                                    APHIS has a two step process to ensure that imported feeder bovine actually
                                    arrive at the slaughter establishment. First, APHIS port officials are required
                                    to reconcile with the feedlots that imported bovine arrived there within
                                    14 days. 53 Second, feedlots are to document the disposition of bovine
                                    imported from Canada that are eventually sent to slaughter through a
                                    notification (APHIS Form 1-27) sent to an APHIS area office. 54 Our review
                                    of APHIS’ first step of the process did not find any discrepancies in what was
                                    imported to a feedlot. However, the same was not true for APHIS’ process to
                                    track bovine from a feedlot to a slaughter establishment.

                                    Our review of APHIS’ process to track bovine from a feedlot to the slaughter
                                    establishment found that area officials did not receive sufficient
                                    documentation to reconcile bovine shipments. We identified feeder bovine
                                    from Canada that were never sent to slaughter because, as noted on the
                                    addendums to the transport documents (APHIS Form 1-27), they were listed
                                    as having died at the feedlot. Although feedlots provided APHIS area offices
                                    with the APHIS Form 1-27, they did not provide APHIS the detailed

52
   9 CFR 93.517(b), dated April 17, 2003, and 9 CFR 93.518, dated October 28, 1997, and VS Memorandum 591.15, Importation of Restricted Animals
from Canada and Mexico, dated March 9, 1994.
53
   VS Memorandum No. 591.64, Procedures for the Importation of Cattle, Bison, Sheep, and Goats from Canada, section V.H.
54
   APHIS published instructions titled “Importation of Bovines from Canada for Feeding” which were addressed to Feedlot Owners and Operators and
Other Interested Parties, and instructions titled “BSE Minimal-Risk Regions and the Importation of Live Animals” that were addressed to Accredited
Veterinarians and Other Interested Parties.

USDA/OIG-A/50601-0012-Ch                                                                                                                 Page 17
                                   addendums that noted that the bovine had died. We reviewed the addendums
                                   to the APHIS Form 1-27 received by 2 slaughter establishments for a
                                   3-month period and identified 362 bovine were listed as “dead” by the
                                   35 feedlots that supplied those establishments. As a result, APHIS area
                                   officials did not account for bovine imported for slaughter.

                                   Under the MRR rule, 55 bovine from Canada were supposed to remain at a
                                   feedlot until transported to a slaughter establishment. We found that there
                                   were no procedures in place for APHIS personnel to perform a complete
                                   reconciliation of animals sent from the feedlot to slaughter. APHIS relied on
                                   its accredited veterinarians at feedlots to inspect and seal bovine shipments
                                   prior to transport to slaughter.

                                   At one area office, we attempted to compare the number of feeder bovine
                                   imported from Canada to the number shipped to slaughter establishments. We
                                   determined that the area office did not receive sufficient documentation from
                                   the feedlots or the slaughter establishments to account for the imported
                                   bovine. Our review of documents at two feedlots, located in the same State as
                                   that area office, disclosed that a comparison between the number of bovine
                                   received and shipped was possible. We identified 74 bovine (in addition to
                                   the 362 bovine identified earlier) that had died, either in transit or at those
                                   feedlots. Our discussions with two accredited veterinarians confirmed that
                                   those bovine were either buried on the feedlots’ premises or sent to a
                                   rendering facility. In addition, area officials did not coordinate with port
                                   officials to reconcile what was delivered to slaughter to what was imported.

                                   Subsequent to our audit, APHIS implemented a new MRR rule that
                                   eliminated the requirements for feeder bovine from Canada. However, the
                                   problems with APHIS’ ability to track restricted animals to their final
                                   destination still exist. 56

                                   Immediate Slaughter Swine from Canada

                                   The restrictions on immediate slaughter swine from Canada require that
                                   shipments be visually inspected, sealed, transported directly to slaughter and
                                   slaughtered within two weeks. 57 Our visit to [                ] port-of-entry,
                                   which accounted for almost half of the 2.4 million immediate slaughter swine
                                   imported from Canada during FY 2006, found that APHIS port officials did
                                   not ensure all swine arrived at the designated slaughter establishments. This
                                   occurred even though FSIS officials reported that the number of swine
                                   offloaded was different than what was stated on the import documents. We


55
   Final rule was published on January 4, 2005, in the Federal Register, Volume 70, Number 460.
56
   Final rule (amended) was published on September 18, 2007, in the Federal Register, Volume 72, Number 180.
57
   9 CFR 93.517(b), dated April 17, 2003, and 9 CFR 93.518, dated October 28, 1997, and VS Memorandum 591.15, Importation of Restricted Animals
from Canada and Mexico, dated March 9, 1994.

USDA/OIG-A/50601-0012-Ch                                                                                                              Page 18
                   found a swine count discrepancy of nearly 9,000 animals within a 4-month
                   period that was reported by 6 slaughter establishments.

                   In a discussion with an APHIS regional official, we found that even though
                   swine count discrepancies were reported as far back as 2005, they did not
                   view tracking swine a priority. As a result, they did not ensure port staff were
                   tracking swine or that action was taken when discrepancies in swine counts
                   were reported by FSIS officials. An APHIS Headquarters official stated that
                   they were not aware of such a large discrepancy in swine counts, but that it
                   probably occurred because the exporter listed the wrong number of animals
                   on the import document. This same official also stated that there were no
                   health concerns because swine from Canada do not pose a serious risk for
                   importing disease.

                   APHIS recognizes the need to develop automated controls over its live
                   animal import process. It is developing the Veterinary Services Process
                   Streamlining (VSPS) system, which is expected to replace existing manual,
                   paper-oriented processes. VSPS is expected to provide a more comprehensive
                   tool for animal tracking and disease analysis that, in turn, would allow
                   APHIS to respond more quickly to any threats to animal health in the United
                   States. However, the live animal import module of VSPS has already been
                   delayed for more than two years due to other agency priorities, and it is not
                   anticipated to be completed before September 2008. Until this system is fully
                   implemented, interim actions need to be taken to strengthen controls and to
                   track the movement of live animals into and through the United States.

Recommendation 8

                   Establish and implement procedures for reconciling all imported restricted
                   animals and forward any discrepancies documented by FSIS officials to area
                   and regional offices for further analysis.

                   Agency Response

                   In their response APHIS officials stated that they had taken action on the
                   inaccurate counts of swine from Canada imported for immediate slaughter.
                   The discrepancies in the inaccurate counts of swine reported by FSIS officials
                   at the slaughter establishments were due to estimated counts being
                   documented on the import forms by the Canadian exporters. Based on
                   industry practices, swine are loaded in large groups, not singly, and it is
                   difficult to get an accurate count. In addition, there was no evidence of
                   tampering (i.e., no broken seals) with those swine shipments and they
                   concluded there was no animal health risk. In regards to bovine from Canada,
                   imported for immediate slaughter, APHIS revised the annex page of the
                   health certificate for the shipper to list the exact number of bovine on a
                   shipment.
USDA/OIG-A/50601-0012-Ch                                                                  Page 19
                   OIG Position

                   We do not see this as an inaccurate count issue for swine, but as a control
                   weakness over restricted animals. The animals are restricted because they are
                   untested and at greater risk of carrying disease across the border. In the event
                   of a swine disease outbreak, APHIS would not be able to successfully track
                   down every animal since the import documents would have only listed
                   estimated counts of swine. In order to reach management decision, APHIS
                   needs to provide a response that includes the procedures, and date of
                   implementation, to reconcile all imported restricted animals and forward any
                   discrepancies documented by FSIS officials to APHIS area and regional
                   offices for further analysis.

Recommendation 9

                   Establish and implement procedures to periodically analyze discrepancies
                   identified by the animal import reconciliation process for trends or other
                   problems with restricted animals. Determine whether these problems are
                   systemic and require other actions by port personnel or the country of origin.

                   Agency Response

                   In their response APHIS officials stated that such procedures have been
                   established. APHIS officials recently developed and will maintain tracking
                   sheets of all non-compliance issues reported and use it to assess whether
                   trends exist. This will also serve as a summary report which will be provided
                   to CFIA officials. The first submission of this report will take place by
                   April 30, 2008.

                   OIG Position

                   We suggested this action in conjunction with Recommendation 8 and based it
                   on APHIS’ implementation of a reconciliation process for restricted animals.
                   In order to reach management decision, APHIS needs to provide a course of
                   action, and an implementation date, that will reconcile/track imported
                   restricted animals and establish a method to analyze those reconciliations to
                   identify trends and implement appropriate corrective actions.




USDA/OIG-A/50601-0012-Ch                                                                  Page 20
Finding 4                           Additional Steps are Needed at the Mexico Border to Prevent the
                                    Importation of Diseased or Unhealthy Bovine

                                    APHIS’ controls at the United States-Mexico border should be strengthened
                                    to prevent the importation of diseased bovine. We confirmed with APHIS
                                    officials that bovine are routinely rejected for health concerns at all southern
                                    ports-of-entry. However, the reasons that animals are rejected are not
                                    accumulated, analyzed, or communicated outside of each individual
                                    port-of-entry or back to Mexico’s animal health officials for corrective
                                    actions. APHIS officials stated that they did not consider the issues occurring
                                    at the southern border to pose a serious health risk. As a result, at one
                                    port-of-entry, we observed that 1.5 percent of the bovine presented for import
                                    were rejected for specific health concerns, including one bovine that was not
                                    checked by APHIS for evidence of a negative TB test.

                                    Federal regulations 58 require bovine from Mexico to be free of
                                    communicable or infectious diseases prior to import. Accordingly,
                                    regulations also prohibit the entry of bovine from Mexico that are part of a
                                    herd or shipment that tested positive for TB. Because TB is a contagious
                                    disease with no known cure for bovine, the entire shipment must be refused
                                    entry until every animal in that shipment achieves TB-free status and meets
                                    other applicable requirements. As part of these other requirements, individual
                                    bovine must be identified with a blue ear tag and be documented as negative
                                    on the TB test records that are to be included with the shipment’s
                                    transportation documents.

                                    During FY 2006, over one million bovine were imported from Mexico. In a
                                    previous audit, 59 we reported that 75 percent of the bovine infected with TB
                                    found in the United States were imported from Mexico. We also previously
                                    reported that bovine imported from Mexico spent up to 14 months at United
                                    States farms before going to slaughter, with each case of TB potentially
                                    spreading the disease during that time.

                                    At [           ] United States-Mexico border port-of-entry, we observed a port
                                    official reject a single bovine from a shipment because it lacked the blue ear
                                    tag, which is evidence of a negative test for TB. However, the rest of the
                                    bovine in that shipment were allowed into the United States even though the
                                    untagged bovine was not inspected, nor had the accompanying records been
                                    checked to verify that the untagged bovine was certified to be free of
                                    communicable disease, had not previously been exposed to disease, or that
                                    the bovine had tested negative for TB. Without performing these additional

58
   9 CFR 93.426(a) and 93.427(c), dated March 2, 2004, and VS Notice No. 06-08, Bovine Tuberculosis Testing Requirements for the Importation of
Mexican Cattle, dated September 8, 2006.
59
   OIG Audit Report, 50601-9-CH, APHIS’ Control Over the Bovine Tuberculosis Eradication Program, dated September 2006.

USDA/OIG-A/50601-0012-Ch                                                                                                                Page 21
                                      steps, APHIS has reduced assurance that the rest of the shipment was not
                                      exposed to a communicable disease such as TB. Federal regulations 60 state
                                      that bovine found to be infected with or exposed to a communicable disease
                                      shall be refused entry. We concluded that the practice of allowing the
                                      remainder of the shipment into the country without confirming the status of
                                      the questionable bovine is not in compliance with regulatory requirements.

                                      We also observed bovine from Mexico being rejected at the port-of-entry for
                                      other animal health issues. In total, we observed 25 of 1,586 (1.5 percent)
                                      bovine being rejected from 8 shipments due to various other health concerns,
                                      such as excessive warts, lameness, or infection. An APHIS port official stated
                                      that bovine from Mexico are rejected for animal health concerns on a routine
                                      basis. We found that port officials do not periodically summarize the results
                                      of their inspection findings or the reasons for refusing entry. They also do not
                                      amend the import documents to identify which bovine are rejected due to
                                      health concerns.

                                      An APHIS regional official informed us that the procedures identified at the
                                      southern border port-of-entry we visited were followed at all ports-of-entry
                                      with Mexico. We concluded that APHIS management needs to implement
                                      additional procedures to minimize the risk of importing diseased animals.
                                      Specifically, port officials at the southern border should be required to review
                                      transport documents to confirm TB tests have been done when the blue ear
                                      tag is absent. If the bovine’s TB status cannot be determined, then that
                                      shipment of bovine should not be allowed into the United States. In addition,
                                      port officials should be required to document and report in an automated
                                      system the reasons for rejected bovine for subsequent analysis and actions by
                                      APHIS officials and Mexican animal health agency personnel.

Recommendation 10

                                      Reject the entire shipment from entry into the United States, if port officials
                                      cannot confirm that the animals tested negative for diseases such as TB.

                                      Agency Response

                                      In their response APHIS officials stated that the most important information
                                      to assess the status of an animal for TB is the status of the herd of origin. In
                                      addition, APHIS officials stated that they had implemented strenuous TB
                                      testing requirements of herds of origin from Mexico. Individual animals are
                                      rejected, but not the entire shipment, because individual animals may lose
                                      their identification tag or their health records may not be properly filled out.



60
     9 CFR 93.426(a), dated February 7, 2003.

USDA/OIG-A/50601-0012-Ch                                                                                     Page 22
                                     Also, due to the established negative status of the herd of origin, the risk of
                                     that animal testing positive for TB and exposing other animals in that
                                     shipment is very low.

                                     OIG Position

                                     APHIS continues to spend resources each year on the eradication of bovine
                                     diseases, such as TB and Brucellosis, which are prevalent in Mexico. In a
                                     previous audit, 61 we reported that 75 percent of the bovine infected with TB
                                     found in the United States were imported from Mexico. If the bovine’s
                                     identification is missing and/or the certifications are not properly filled out,
                                     there is reduced assurance that the bovine presented for import were not
                                     exposed to, or infected with a disease. If a blue ear tag was missing, APHIS
                                     port-of-entry officials could review the secondary identification attached to
                                     each animal to confirm the bovine’s health status. To achieve management
                                     decision, APHIS needs to enforce its own regulation by instructing their field
                                     staff to review animal documentation on TB testing if a blue ear tag is
                                     missing and reject the entire herd if assurance cannot be provided.

Recommendation 11

                                     Implement procedures at the southern border ports-of-entry to require port
                                     officials to amend import documents to reflect only those animals that are
                                     allowed to enter the United States.

                                     Agency Response

                                     In their response APHIS officials stated that they agreed with our
                                     recommendation and they will establish a new protocol for inspection
                                     procedures at the ports-of-entry with Mexico to amend the import documents
                                     to reflect only those animals that were allowed into the United States. This
                                     protocol should be finalized by April 30, 2008.

                                     OIG Position

                                     We accept APHIS’ management decision. For final action, provide the
                                     OCFO with a copy of the new protocol to amend import documents to reflect
                                     only those animals allowed in the United States.




61
     OIG Audit Report, 50601-9-CH, APHIS’ Control Over the Bovine Tuberculosis Eradication Program, dated September 2006.

USDA/OIG-A/50601-0012-Ch                                                                                                    Page 23
Recommendation 12

                    Automate inspection results for rejected animals from Mexico and document
                    the reasons for those rejections. In addition, periodically analyze those
                    rejections and use the results of that analysis to contact Mexico’s animal
                    health agency officials and to implement corrective actions as needed.

                    Agency Response

                    The response stated that APHIS officials agreed with our recommendation,
                    but that the current Import Tracking System does not have the capability to
                    automate inspection results. APHIS officials stated that the new import
                    module of VSPS will incorporate this feature, but this will not be completed
                    until September 30, 2009. In the interim, APHIS officials will develop a
                    manual reporting system and related operating procedures for import
                    noncompliance issues disclosed at the ports-of-entry with Mexico. The
                    operating procedures will be developed at the Mexican Border Port
                    Veterinarian workshop held the week of July 14, 2008, and will be
                    implemented by September 1, 2008.

                    OIG Position

                    In the response to our report, it was not clear that APHIS officials would
                    periodically analyze all animal rejections and use the results of that analysis
                    to contact Mexico’s animal health agency officials to implement corrective
                    actions. In order to reach management decision, APHIS needs to provide a
                    response that includes procedures and an implementation date for
                    periodically analyzing all animal rejections from Mexico, and use the results
                    of that analysis to contact Mexico’s animal health agency officials to
                    implement corrective actions as needed.




USDA/OIG-A/50601-0012-Ch                                                                  Page 24
Section 2.          Accountability for Official USDA Seals

Finding 5                         APHIS Needs a Better System to Account for Official USDA Seals

                                  APHIS area and port operations did not properly safeguard or account for
                                  official USDA seals used to secure shipments of restricted animals. We found
                                  that over 14,000 seals could not be accounted for at 5 area offices, and that
                                  sufficient information was not available to reconcile the seals at 4 of the
                                  5 port offices we visited. APHIS established requirements for accredited
                                  veterinarians 62 to follow in safeguarding seals, but had not issued procedures
                                  or guidelines to their own staff. As a result, there were inconsistencies in how
                                  seals were handled by APHIS area and port officials. We consider this a
                                  potential risk to homeland security because a seal signifies that the
                                  conveyance has been inspected and approved for entry into the United States.

                                  Federal regulations 63 state that accredited veterinarians shall be responsible
                                  for the security and proper use of all official materials, including certificates,
                                  forms, tags, bands, or other identification devices. Accredited veterinarians
                                  must immediately report any loss, theft, and deliberate or accidental misuse
                                  of official materials. In addition, APHIS has a policy memorandum 64 that
                                  establishes a system of accounting for official USDA seals issued to
                                  accredited veterinarians. However, APHIS did not have written procedures to
                                  address accountability for seals by area office or port-of-entry staff, or to
                                  periodically account for seals maintained by accredited veterinarians.

                                  Certain shipments of live animals are required to have the truck doors
                                  secured with an official USDA seal to maintain the integrity of restricted
                                  animal movements (e.g., Canadian swine). APHIS purchased nearly 1 million
                                  USDA seals between FYs 2001 and 2006. The seals are numbered
                                  sequentially, are tamper-proof in design, and are used by APHIS personnel
                                  and their accredited veterinarians to secure shipments. APHIS designates
                                  specific personnel at feedlot and slaughter establishments to check the
                                  integrity of seals on arriving shipments, and to confirm that the seal numbers
                                  are the same as those recorded on the accompanying import documentation.
                                  The presence of a USDA seal on a shipment signifies to FSIS at slaughter
                                  establishments that those animals passed inspection by an APHIS official or
                                  an accredited veterinarian and can be slaughtered.

                                  During our visits to five area offices and five ports-of-entry, we found there
                                  was no consistency in how seals were safeguarded or controlled. APHIS had
                                  not developed procedures or instructions to explain how seals should be
                                  handled. As a result, each location maintained seals and records of seal usage

62
   We did not determine whether any accredited veterinarian followed these safeguarding procedures.
63
   9 CFR 161.3(j) dated March 15, 2002.
64
   VS Memorandum 592.112, Control of USDA Seals Used for Export Purposes, dated September 13, 1993.

USDA/OIG-A/50601-0012-Ch                                                                                   Page 25
                    differently. Our site visits also disclosed that physical controls over seals
                    were lacking at two locations. For example, one port-of-entry had seals
                    accessible behind a counter and left other seals unattended in an unlocked
                    vehicle.

                    We determined that 9 of the 10 locations we visited did not have sufficient
                    documentation to reconcile the number of seals received, issued, and used.
                    After we obtained purchase information from APHIS' seal supplier, we were
                    able to perform reconciliations at the 5 area offices. Based on the limited
                    documentation maintained at those offices, we calculated that at least
                    [                    ] seals purchased or on-hand from previous orders were
                    not recorded as issued or in inventory. Four of the five port locations we
                    visited maintained even less documentation than the area offices.

                    We concluded that controls needed to be immediately implemented for
                    USDA seals. Seals provide an additional safeguard over imported animals
                    that end up in the U.S. food supply. In addition, seals also indicate that a
                    shipment was inspected by a USDA or official representative and that the
                    contents were secured. Due to the critical nature of this issue and the number
                    of seals that could not be accounted for, we issued a Management Alert to
                    APHIS dated May 1, 2007. In response, APHIS officials stated that they were
                    preparing memoranda that specified the procedures for the accountability for
                    official USDA seals.

                    APHIS needs to establish greater controls over official USDA seals used to
                    secure animal shipments. Even though we found that all five area offices
                    maintained some type of inventory records, area officials did not document
                    that all seals were issued or returned. Without procedures or guidelines to
                    follow, area and port officials did not know to reconcile the number of seals
                    in inventory with the number received and issued, or to secure the area where
                    the seals were stored.

Recommendation 13

                    Initiate an inventory of seals, reconcile seals on hand to receipts, identify if
                    any additional seals are unaccounted for, and obtain explanations to resolve
                    and account for those seals.

                    Agency Response

                    In their response to the Management Alert, dated May 17, 2007, APHIS
                    officials stated that they would issue an alert instructing all area offices to
                    immediately reconcile their current seals on hand and to increase the security
                    of official USDA seals maintained in their office. APHIS also indicated that
                    they have not received any information on the misuse of official USDA seals.
                    APHIS officials issued an alert to area offices on October 17, 2007, with
USDA/OIG-A/50601-0012-Ch                                                                   Page 26
                    instructions to reconcile official USDA seals on hand, and to increase the
                    security over official USDA seals. In response to this report, APHIS officials
                    stated that records of seals distributed were not uniformly collected or
                    maintained. Since APHIS had not received any reports on the misuse or theft
                    of seals, it would be more effective to implement detailed guidelines and
                    policy for all area offices to secure and record current seal inventories, as
                    detailed in their response to Recommendation 15.

                    OIG Position

                    In order to reach management decision, APHIS officials need to provide a
                    response that indicates when area officials will complete an inventory,
                    document the seals currently on hand, and secure official USDA seals from
                    theft or misuse.

Recommendation 14

                    Notify field operations of the missing official USDA seal numbers, and issue
                    instructions that any shipment found with these numbers receive extra
                    scrutiny; inspection personnel should also ascertain the origin of the official
                    USDA seals, and notify the Area Veterinarian-in-Charge and regional office
                    that missing official USDA seals were located and include the details of the
                    shipment.

                    Agency Response

                    In their response to the Management Alert, dated May 17, 2007, APHIS
                    officials stated that they would issue an alert instructing all area offices to
                    immediately reconcile their current seals on hand and to increase the security
                    over official USDA seals maintained in their office. APHIS also indicated
                    that they have not received any information on the misuse of official USDA
                    seals. APHIS officials issued an alert to area offices on October 17, 2007,
                    with instructions to reconcile official USDA seals on hand and to increase the
                    security over official USDA seals. In response to this report, APHIS officials
                    reiterated that seals cannot be used for a shipment without the accompanying
                    official paperwork, and that they have not found any misuse in their efforts to
                    establish better controls over seals.

                    OIG Position

                    We accept APHIS’ management decision. No further action is necessary.




USDA/OIG-A/50601-0012-Ch                                                                  Page 27
Recommendation 15

                    Establish written policies and guidelines for APHIS officials to follow to
                    ensure that they adequately record and inventory official USDA seals under
                    their control on a routine basis. As part of this process, include reviews of the
                    accountability of official USDA seals issued to accredited veterinarians.

                    Agency Response

                    APHIS officials agreed with our recommendation and stated that they
                    developed and issued guidance for their area officials to follow on
                    October 17, 2007. The guidance contained instructions for the inventory,
                    control, and proper use of official USDA seals. A new APHIS memorandum
                    is currently under review and will be published by May 30, 2008, that will
                    provide more detailed instructions and procedures for the proper use,
                    distribution, accounting, and security of official USDA seals.

                    OIG Position

                    We accept APHIS’ management decision. For final action, provide the
                    OCFO with the new memorandum on the proper use, distribution,
                    accounting, and security of official USDA seals issued to area office staff.

Recommendation 16

                    Require accredited veterinarians to periodically reconcile and account for
                    their inventories of official USDA seals.

                    Agency Response

                    The response stated that APHIS officials agreed with our recommendations
                    and they will develop a memorandum for all accredited veterinarians to
                    follow that specifies their responsibilities in the proper use, distribution,
                    accounting, and security of all accountable forms and seals. The new
                    memorandum will require accredited veterinarians to periodically reconcile
                    and account for the seals in their inventories, and will be issued by
                    May 30, 2008.

                    OIG Position

                    We accept APHIS’ management decision. For final action, provide the
                    OCFO with the new memorandum on the proper use, distribution,
                    accounting, and security of official USDA forms and seals that was issued to
                    APHIS’ accredited veterinarians.




USDA/OIG-A/50601-0012-Ch                                                                    Page 28
Section 3.             APHIS Needs to Improve Oversight of Area and Port Operations

                                     APHIS reviews import operations at slaughter establishments and
                                     ports-of-entry to determine that import controls and protocols are functioning
                                     as intended. However, during FYs 2004 through 2006, area officials did not
                                     perform the required reviews at 17 of 29 approved slaughter establishments
                                     located in 4 States. In addition, APHIS management had not conducted
                                     operational reviews at [                          ] ports-of-entry. As a result,
                                     there is reduced assurance that import controls and protocols were
                                     functioning as intended. We also found that controls had not been established
                                     to ensure the accuracy of import data being recorded in the Import Tracking
                                     System. We previously reported this problem to APHIS in March 2005. 65


Finding 6                            APHIS did not Re-inspect Slaughter Establishments that
                                     Imported Live Animals

                                     To prevent the dissemination of animal diseases, APHIS implemented certain
                                     import protocols for slaughter establishment personnel to follow. APHIS area
                                     officials are responsible for reviewing the protocols every six months. At 4 of
                                     the 5 area offices we reviewed, we found that they did not perform the
                                     required 6-month re-inspections at 17 of 29 establishments still listed on
                                     APHIS’ website as approved to receive imported animals for slaughter. This
                                     occurred because APHIS Headquarters’ officials had not sufficiently
                                     monitored the performance of the re-inspections, or questioned area officials
                                     when re-inspections were not timely performed. As a result, 3 of the
                                     17 establishments slaughtered 142,336 bovine and swine from Canada
                                     without APHIS ensuring that proper import protocols were in place.

                                     A memorandum 66 on the importation of animals for immediate slaughter
                                     includes provisions that APHIS area and establishment officials must follow.
                                     Area officials approve, and semi-annually re-inspect, establishments that
                                     accept animals from Canada and Mexico for immediate slaughter. Area
                                     officials are required to report the status of those re-inspections to APHIS
                                     Headquarters, which maintains a listing on its website of approved
                                     establishments. APHIS Headquarters officials also issued protocols that
                                     require establishment personnel to verify the official USDA seal numbers and
                                     review the required import documents prior to unloading a shipment. To
                                     prevent the dissemination of disease, establishment personnel must:
                                     (1) maintain animals in specific pens; (2) not remove those animals from the
                                     premises, unless authorized; and (3) slaughter the animals within two weeks
                                     from the date of entry.
65
     OIG Audit Report No. 33501-1-CH, Review of Application Controls for the Import Tracking System, dated March 2005.
66
     APHIS VS Memorandum 591.15, Importation of Restricted Animals from Canada and Mexico, dated March 9, 1994.

USDA/OIG-A/50601-0012-Ch                                                                                                 Page 29
                                      APHIS maintains a web-based listing of 163 67 immediate slaughter
                                      establishments approved to import immediate slaughter animals. If an
                                      establishment no longer receives imported animals for immediate slaughter it
                                      must notify the APHIS area office, which sends written notification to both
                                      the establishment and APHIS Headquarters that the establishment is no
                                      longer approved to import. APHIS Headquarters officials use that written
                                      notification to update the nationwide approved establishment listing on their
                                      website. However, we found that 14 of the 17 establishments did not import
                                      immediate slaughter animals during FY 2006 and were still listed as
                                      approved establishments on APHIS’ website. APHIS area officials stated that
                                      3 of the 17 establishments that received imported animals were not inspected
                                      because they did not have the staff to perform all of the re-inspections. The
                                      listing of approved establishments is important since it is used by port
                                      officials to determine whether an imported animal shipment should be
                                      allowed entry into the United States.

                                      An APHIS Headquarters official stated that they do their best to continually
                                      monitor the listing of approved establishments and the reports of
                                      re-inspections submitted by area offices. However, we found that the
                                      May 2007 listing of approved establishments for the five States we reviewed
                                      listed the most recent inspection for one establishment as
                                      January 1999. Therefore, we concluded that APHIS Headquarters officials
                                      did not adequately monitor or follow up with area officials as to why the
                                      required re-inspections were not performed.

Recommendation 17

                                      Instruct area office personnel to review the current list of approved slaughter
                                      establishments and report to APHIS Headquarters which locations need to be
                                      updated.

                                      Agency Response

                                      In their response APHIS officials stated that they agreed with our
                                      recommendation and they will instruct area office staff to review the current
                                      list of approved slaughter establishments and report to their regional officials
                                      which locations need to be updated. The regional offices were instructed to
                                      provide the updated listing to APHIS Headquarters no later than April 30,
                                      2008.

                                      OIG Position

                                      We accept APHIS’ management decision. For final action, provide the
                                      OCFO with a copy of the updated list of approved slaughter establishments.

67
     The total number of slaughter establishments approved to receive immediate slaughter animals from Canada and Mexico nationwide as of May 9, 2007.

USDA/OIG-A/50601-0012-Ch                                                                                                                   Page 30
Recommendation 18

                                     Develop controls to ensure that re-inspections and other operational reviews
                                     are completed in a timely manner.

                                     Agency Response

                                     The response by APHIS officials stated that they agreed with our
                                     recommendation, and controls were in place. APHIS officials noted that the
                                     6-month re-inspection of approved slaughter establishments was a required
                                     component and that they would work to better standardize the process by
                                     issuing alerts of upcoming re-inspections. The first review of completed and
                                     upcoming re-inspections of slaughter establishments will be completed by
                                     April 30, 2008.

                                     OIG Position

                                     We accept APHIS’ management decision. For final action, provide the
                                     OCFO with the procedures that were implemented to ensure re-inspections
                                     are completed in a timely manner.


Finding 7                            Port Operations Not Routinely Reviewed

                                     APHIS regional officials had not reviewed [                                   ]
                                     ports-of-entry in the past 5 years. Regional officials stated that they did not
                                     always visit ports-of-entry because they delegated this responsibility to the
                                     area offices. The area offices, however, did not conduct oversight reviews
                                     and the regional office did not have controls to assure reviews were done. As
                                     a result, we found inconsistencies in port operations. APHIS lacks
                                     management oversight to ensure port officials properly implement import
                                     requirements.

                                     Federal regulations 68 require certain conditions be met before animals from
                                     foreign countries are allowed into the United States. The conditions for
                                     import require port officials to perform a visual inspection of the imported
                                     animals, review and generate import documents, and track certain shipments
                                     to ensure all animals arrived at their destination. APHIS procedures require
                                     regional offices to provide oversight of area offices, to include periodically
                                     performing operational reviews of port operations through what is called a
                                     station review. 69


68
     9 CFR Part 93, dated July 27, 2006.
69
     APHIS VS Memorandum 515.1, Guidelines for Veterinary Services Program and Station Reviews, dated October 2005.

USDA/OIG-A/50601-0012-Ch                                                                                              Page 31
                                    Inconsistencies in Port Operations

                                    Our visits to [                              ] ports-of-entry disclosed that port
                                    officials were inconsistent in the execution of port procedures and therefore,
                                    did not ensure compliance with animal import requirements. For example,
                                    immediate slaughter swine shipments from Canada should be visually
                                    inspected and sealed at the port-of-entry. 70 However, we observed officials at
                                    two ports-of-entry who did not seal every door on slaughter swine transports,
                                    and one port-of-entry did not visually inspect the upper level of the trailer.

                                    We also found inconsistencies at the ports-of-entry in how they accounted for
                                    official USDA seals. For example, one port official only recorded the serial
                                    numbers for those that were issued, while another port official recorded the
                                    receipt and issuance of each seal.

                                    OIG recommended in two previous audit reports 71 that APHIS develop and
                                    implement a port operations manual that would prescribe the controls and
                                    procedures at ports-of-entry. In January 2001, we accepted APHIS
                                    management’s response to our prior audit recommendations where they
                                    anticipated a final version of a port manual by May 1, 2001. However, as of
                                    December 2007, a standardized port manual had not been completed due to
                                    other priorities.

                                   Lack of Oversight of Port Operations

                                    We found that port operations are not generally included in APHIS’ station
                                    reviews. Since 2002, APHIS has not reviewed the operations at [
                                          ] ports-of-entry. Although 20 of the 71 ports-of-entry had been
                                    reviewed over the last 5 years, those ports-of-entry were responsible for only
                                    13 percent of the animals imported during FY 2006. The remaining
                                    51 ports-of-entry, responsible for the majority of imported animals, were not
                                    reviewed at all.

                                    We determined that APHIS regional officials had deferred the oversight of
                                    port operations to their area officials. However, they had not established a
                                    formal policy that required area officials to periodically review ports-of-
                                    entry. In discussions with three area officials responsible for import
                                    operations at [           ] northern and southern border ports-of-entry, they
                                    stated that they did not perform routine or formal port reviews. Those same
                                    officials stated that they would periodically visit the ports-of-entry under
                                    their supervision, but those visits occurred either in a relief capacity or to
                                    provide the port veterinarians with their annual employee evaluations. APHIS

70
   9 CFR Part 93.517(b), dated April 7, 2003, and 93.518, dated October 28, 1997, and VS Memorandum 591.15, Importation of Restricted Animals from
Canada and Mexico, dated March 9, 1994.
71
   OIG Audit Report No. 33099-2-HY, APHIS International Programs, dated January 2001, and Audit Report No. 33099-1-HY, APHIS International
Programs, dated June, 1995.

USDA/OIG-A/50601-0012-Ch                                                                                                              Page 32
                                      officials from both regions agreed that although there was no written policy
                                      to conduct a routine formal port review, there would be no way for area
                                      officials to assess and correct problems if they did not routinely review port
                                      operations.

                                      As noted in Finding 2 of this report, regional officials provided OIG with a
                                      draft version of APHIS’ Safeguarding Review Action Plan – Animal Import
                                      Land Border Point of Entry. 72 The Action Plan noted that the safeguarding
                                      review team reviewed 23 ports-of-entry in August and September 2004. We
                                      visited five of the same ports-of-entry as the safeguarding review team and
                                      found similar conditions. For example, we determined there was a lack of
                                      coordination with CBP officials regarding the notification of incoming live
                                      animal shipments and the implementation of the Temporary Horse Program
                                      (see Finding 2), that APHIS still had not issued a standard port operations
                                      manual which resulted in inconsistencies in operations between the ports-of-
                                      entry, and APHIS port officials were still making input errors in the Import
                                      Tracking System (see Finding 8). APHIS officials could not explain why
                                      corrective actions have not been taken on these issues.

                                      Although the agency’s Strategic Plan 73 noted that regional offices would
                                      provide greater oversight of their offices in surveillance and control activities,
                                      we concluded that APHIS has not made it a priority to do so. Until APHIS
                                      requires routine reviews of ports-of-entry and issues a standardized port
                                      operations manual, there is reduced assurance that port officials have
                                      adequately and consistently implemented import requirements.

Recommendation 19

                                      Complete and distribute a port operations manual to officials responsible for
                                      the review and approval of animal imports to include provisions for
                                      inspecting and sealing trailers, reconciling bovine and swine shipments, and
                                      accounting for official USDA seals.

                                      Agency Response

                                      APHIS officials agreed with our recommendation and stated that the port
                                      operations manual will be completed and distributed by June 30, 2008.

                                      OIG Position

                                      We accept APHIS’ management decision. For final action, provide the
                                      OCFO with a copy of the completed port operations manual and the effective
                                      date of implementation.

72
     APHIS Report, Safeguarding Review Action Plan (Draft), dated January 31, 2007.
73
     APHIS VS Strategic Plan FY 2006 to FY 2011.

USDA/OIG-A/50601-0012-Ch                                                                                       Page 33
Recommendation 20

                                     Amend VS Memorandum 515.1, Guidelines for Veterinary Services Program
                                     and Station Reviews, dated October 2005, to review selected ports-of-entry
                                     during the annual station review process.

                                      Agency Response

                                      In their response APHIS officials stated that they agreed with our
                                      recommendation, and that a port is reviewed at the time a station review is
                                      conducted. APHIS officials agreed to amend VS Memorandum 515.1, by
                                      May 30, 2008, to include a port facility review checklist.

                                      OIG Position

                                      We accept APHIS’ management decision. For final action, provide the
                                      OCFO with the amended VS Memorandum 515.1 and the port facility review
                                      checklist.


Finding 8                             Import Tracking System Errors Are Still Occurring

                                      APHIS uses the Import Tracking System (ITS) to record information on all
                                      live animal imports. We identified data errors (e.g., incorrect quantities,
                                      destinations, species, and purposes) with records entered into ITS for live
                                      animal shipments. We disclosed similar data errors in a previous OIG audit. 74
                                      In that audit, we attributed this weakness to the lack of sufficient manual
                                      controls (such as second party reviews) and systemic edit checks for data
                                      input into the system. Corrective actions for this previously reported problem
                                      were to be implemented in the system that was to replace ITS by April 2005.
                                      However, APHIS still has not implemented ITS’ replacement due to changes
                                      in agency priorities, and the system is not anticipated to be completed before
                                      September 2008. As a result, APHIS officials utilized incorrect animal import
                                      data to prepare reports for stakeholders and to perform analysis of import
                                      patterns to develop models for emerging animal diseases.

                                      For each shipment of imported animals, APHIS port officials enter into a
                                      local stand alone version of ITS the animal quantity, species, purpose, and
                                      destination. After port officials enter data into the local ITS, they transmit
                                      this information to APHIS at the Center for Epidemiology and Animal Health
                                      (CEAH) to be uploaded into the nationwide ITS system. CEAH officials
                                      oversee ITS, and utilize the animal import data for statistical purposes and to
                                      develop reports and models for emerging animal diseases. Departmental
74
     OIG Audit Report No. 33501-1-CH, Review of Application Controls for the Import Tracking System, dated March 2005.

USDA/OIG-A/50601-0012-Ch                                                                                                 Page 34
                                      Regulations 75 require agencies to ensure the validity of input data to check
                                      for accuracy, completeness, consistency, and reasonableness.

                                      In a previous OIG audit, we reported that ITS did not have sufficient manual
                                      or systemic application controls in place to ensure the accuracy of
                                      information in the system. In response to this audit, APHIS replied that
                                      insufficient personnel were available at most ports-of-entry to implement
                                      additional manual controls such as second party or supervisory reviews.
                                      However, APHIS officials did state that new systemic controls, such as cross-
                                      validation checks, would be incorporated into a new system, Veterinary
                                      Services Process Streamlining (VSPS), by April 30, 2005, to help identify
                                      input errors and ensure the data were complete and reasonable.

                                      We tested ITS data for FY 2006 and found the rate and types of errors made
                                      were similar to what we previously reported. We tested ITS data for
                                      224 shipments at 5 ports of entry, and determined that 7 (3 percent) of those
                                      records contained some type of input error. The types of errors we identified
                                      included 540 feeder swine listed as slaughter swine, a poultry shipment of
                                      5,184 animals recorded as a swine shipment (causing errors in both poultry
                                      and swine data), and 2 foreign importer locations mistakenly coded as a U.S.
                                      destination. The errors could have been prevented if the input data were
                                      either reviewed by another staff person or if ITS contained sufficient
                                      systemic controls, such as a data cross-validation checks, to identify the input
                                      of erroneous data.

                                      In a discussion with CEAH officials, they stated that they did not have the
                                      staff to perform manual edits checks of the data entered into ITS. CEAH
                                      officials also stated that they would direct their limited information
                                      technology resources to the development of certain cross-validation checks
                                      into the import module of VSPS. This reply was similar to the response
                                      APHIS provided to our previous audit 76 recommendation in March 2005. We
                                      accepted management decision on that recommendation because APHIS’
                                      response stated that the import module of VSPS would be completed by
                                      April 30, 2005, and this would correct the system problems we previously
                                      reported. However, APHIS still has not implemented the import module of
                                      VSPS due to changes in agency priorities, and the system is not anticipated to
                                      be completed before September 2008. As a result, controls are still not in
                                      place to ensure the accuracy of data in ITS, and interim actions are needed to
                                      do so.




75
     Departmental Manual 3140-1, Management ADP Security Manual, Section 17 (a)(4), dated July 19, 1984.
76
     OIG Audit Report No. 33501-1-CH, Review of Application Controls for the Import Tracking System, dated March 2005.

USDA/OIG-A/50601-0012-Ch                                                                                                 Page 35
Recommendation 21

                    Establish manual and automated application controls for ITS until the import
                    module of VSPS is implemented at the ports-of-entry.

                    Agency Response

                    In their response APHIS officials stated that currently all import data is
                    reviewed manually for obvious discrepancies and cross-checked with AMS
                    data. The ITS does not have an internal data quality aspect to cross-check the
                    validity of entries, and funding is not currently available to add any
                    enhancements to the current system. APHIS will continue to manually
                    validate the ITS data.

                    OIG Position

                    The current APHIS manual validation of ITS data was not sufficient to
                    ensure the accuracy of information in system and until VSPS can be
                    implemented, additional measures are needed in order to comply with
                    Departmental Regulations. Actions such as a second party review of daily
                    transactions at the ports-of-entry prior to data being uploaded to ITS would
                    quickly identify errors before entry into the system. In order to reach
                    management decision, APHIS needs to provide a response that includes the
                    additional manual or automated application controls that are needed to ensure
                    the accuracy of ITS until the new import module in VSPS can be
                    implemented.




USDA/OIG-A/50601-0012-Ch                                                                 Page 36
Scope and Methodology
                                      We performed our audit fieldwork from August 2006 through July 2007 at
                                      APHIS’ and FSIS’ national offices, APHIS’ eastern and western regional
                                      offices, Center for Epidemiology and Animal Health (CEAH), 5 of 41 area
                                      offices, and 5 of 37 land border ports-of-entry out of a total of over
                                      60 ports-of-entry nationwide. We also visited two bovine and two swine
                                      slaughter facilities, and two feedlots. In addition, we evaluated information
                                      from APHIS’ IES field offices; APHIS’ property warehouse in Kansas, City,
                                      MO; and 15 feedlots located in Minnesota and Nebraska that received bovine
                                      from Canada. The audit covered FY 2006, but prior years were included as
                                      noted in the Findings and Recommendations section of the report.

                                      At APHIS’ National office, we reviewed animal import data, and selected the
                                      [           ] Canadian ports-of-entry and [            ] Mexican port-of-entry
                                      for visit (based on the number of animals imported). A total of 33 of the
                                      40 million animals imported during FYs 2005 and 2006 crossed through
                                      these 5 ports-of-entry. At the western regional office, we determined that the
                                      area offices had a key role in the oversight of port operations, so we
                                      expanded the scope to include visits to area offices.

                                      We conducted the audit in accordance with Government Auditing Standards.

                                      To accomplish our audit objectives we:

                                       •    Interviewed APHIS officials at the national, regional, and area offices,
                                            and land border ports-of-entry; FSIS officials at the national, district, and
                                            slaughter facilities; and management at selected slaughter facilities and
                                            feedlots.

                                       •    Reviewed APHIS and FSIS laws, rules, regulations, policies, procedures,
                                            and interagency agreements pertaining to the importation and movement
                                            of live animals.

                                       •    Compared CEAH statistical data for imported live animals to port
                                            statistical data to assess the accuracy of the ITS, and to determine
                                            whether ITS deficiencies reported in the prior audit 77 still existed.

                                       •    Analyzed APHIS station and port reviews performed during
                                            FYs 2002 through 2006 to determine whether major ports-of-entry have
                                            been reviewed.



77
     OIG Audit Report No. 33501-1-CH, Review of Application Controls for the Import Tracking System, dated March 2005.

USDA/OIG-A/50601-0012-Ch                                                                                                 Page 37
                    •   Analyzed IES quarterly reports and case information for import
                        violations and assessed communications between IES and APHIS’
                        Veterinary Services.

                    •   Evaluated area office oversight of port and slaughter establishment
                        operations, and the implementation of import procedures and policies.

                    •   Observed port operations and inspections of live animal shipments in
                        order to evaluate controls over live animal imports.

                    •   Conducted inventories of official USDA seals at APHIS area offices and
                        ports-of-entry, and analyzed safeguarding and issuance controls.

                    •   Observed FSIS and facility procedures for processing shipments of
                        restricted Canadian animals.

                    •   Interviewed feedlot managers to determine their procedures for
                        determining the age of bovine imported from Canada.

                    •   Assessed APHIS’ progress in implementing the Veterinary Services
                        Process Streamlining system.




USDA/OIG-A/50601-0012-Ch                                                              Page 38
Exhibit A – APHIS’ Response to the Report
                                            Exhibit A – Page 1 of 7




USDA/OIG-A/50601-0012-Ch                                Page 39
Exhibit A – APHIS’ Response to the Report
                                            Exhibit A – Page 2 of 7




USDA/OIG-A/50601-0012-Ch                                Page 40
Exhibit A – APHIS’ Response to the Report
                                            Exhibit A – Page 3 of 7




USDA/OIG-A/50601-0012-Ch                                Page 41
Exhibit A – APHIS’ Response to the Report
                                            Exhibit A – Page 4 of 7




USDA/OIG-A/50601-0012-Ch                                Page 42
Exhibit A – APHIS’ Response to the Report
                                            Exhibit A – Page 5 of 7




USDA/OIG-A/50601-0012-Ch                                Page 43
Exhibit A – APHIS’ Response to the Report
                                            Exhibit A – Page 6 of 7




USDA/OIG-A/50601-0012-Ch                                Page 44
Exhibit A – APHIS’ Response to the Report
                                            Exhibit A – Page 7 of 7




USDA/OIG-A/50601-0012-Ch                                Page 45
Exhibit B – FSIS’ Response to the Report
                                           Exhibit B - Page 1 of 2




USDA/OIG-A/50601-0012-Ch                              Page 46
Exhibit B – FSIS’ Response to the Report
                                           Exhibit B – Page 2 of 2




USDA/OIG-A/50601-0012-Ch                               Page 47
Informational copies of this report have been distributed to:

Administrator, APHIS                                             (9)
       Attn: Agency Liaison Officer
Administrator, FSIS                                             (20)
       Attn: Agency Liaison Officer
Government Accountability Office                                 (1)
Office of Management and Budget                                  (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division            (1)
